<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Murray, Stevens, 
Domenici, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY OF THE 
            AIR FORCE

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Michael 
Wynne, Secretary of the Air Force, and General T. Michael 
Moseley, the Air Force Chief of Staff. Gentlemen, thank you for 
being here today as the subcommittee reviews the Air Force's 
budget request for fiscal year 2009.
    The Air Force's fiscal year 2009 base budget requests $117 
billion, an increase of $8.6 billion over last year's enacted 
bill.
    The subcommittee recognized the priorities of the Air Force 
of fighting and winning the long war on terror, taking good 
care of the airmen and their families, and preparing for 
tomorrow's challenges. We also recognize the challenges 
associated with recapitalizing or trying to modernize the 
existing fleet and maintaining readiness at the same time. With 
the average age of the fleet being 24 years old and the 
aircraft recapitalization rate approaching 50 years, it is 
imperative to find the correct balance among these competing 
priorities in order for the Air Force to posture itself for the 
future.
    Another challenge that I am hoping to learn more about in 
today's testimony is the personnel drawdown of our airmen. The 
Air Force is projecting that there will be an end strength of 
316,000 by fiscal year 2009, which is a reduction of 40,000 
airmen since 2005. We are all aware that the environment in 
which the decision was made to draw down Air Force personnel 
has changed significantly, and according to the unfunded 
requirements submitted by the Air Force, you need an additional 
$385 million in fiscal year 2009 in support of the Air Force's 
86 combat wings, also referred to as the required force.
    The unfunded requirements list submitted by the Air Force 
contains 150 items and totals to a staggering $18 billion. And 
this is in an environment where funding for the Department of 
Defense is at historically high, unprecedented rates, if 
intended or not. The message that I take away from such a 
document is that something is wrong. The services should not 
have to depend on the Congress to fund basic needs such as 
personnel requirements to sustain the force. To many in 
Congress, an $18 billion unfunded requirements list says our 
budget process is broken.
    Another matter that is likely to be a topic of discussion 
this morning is the recent decision of the new tanker being 
awarded to Northrop-Grumman Corporation. We hope that Air Force 
officials involved in the decisionmaking process can provide 
more details on why they selected the Northrop-Grumman-EADS 
team over Boeing. As soon as the factors affecting the decision 
are known, people will be better informed to decide whether the 
award was appropriate.
    Finally, as the subcommittee examines the fiscal year 2009 
request, we must remember that the budget before us is based on 
recommendations made 6 months ago and it will be several months 
before a bill will be approved and sent to the White House. 
Between now and then, there are likely to be changes 
recommended for your requests in order to best serve our 
national defense. This subcommittee works hard to propose 
adjustments that makes sense. I believe it is the duty of 
Congress and the military services to work as partners in 
identifying and executing adjustments made during the 
appropriations process. And so I look forward to working with 
each of you to continue that spirit of cooperation which is a 
tradition that has served our Nation well.
    Gentlemen, we sincerely appreciate your service to our 
Nation and the dedication and sacrifices that are made daily by 
the men and women in the United States Air Force. We could not 
be more grateful for what you do.
    Your full statements will be included in the record, and 
now it is my pleasure and honor to turn to my co-chairman, 
Senator Stevens for his opening remarks.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman.
    I'm glad to see you here, Mr. Secretary and General.
    This is a difficult time because I think we all know there 
is not enough money available right now to meet all the demands 
for every service, and we have some tough choices to make. I 
look forward to your testimony.
    I will say right up front I am currently a little worried 
about how we can handle, even get involved in this tanker 
dispute because of the briefing we had yesterday where we were 
told that so much of it is tied up in an area that is 
considered to be classified and particularly because of the 
fact that there is a protest that has been filed against the 
selection.
    Having said that, I think that we are permitted to talk 
about one problem that I see which is paramount and that is, 
the production that takes place in 21 countries is considered 
the production in the United States. And that has caused 
concern in my home State--I do not know about the rest of the 
members. We are getting overwhelming mail on both sides of this 
issue about the question of the propriety of the foreign 
involvement in a critical program such as the tanker program.
    I look forward to the chance to discuss this with you, but 
I do hope that we can understand--I do understand the 
parameters that we must operate in because of the situation of 
the protests and because of the classification of the basic 
information we received yesterday. But we still have to have 
some way to satisfy our constituents as to whether this 
decision was right or wrong. So I look forward to your 
testimony.
    Mr. Chairman, Senator Cochran could not be here today, but 
asked that his statement be inserted into the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming 
Secretary Wynne and General Moseley this morning.
    The Air Force is playing an important role in the global 
war on terrorism both on the ground and in the air. Its 
aircraft and forces have been guarding the skies over the 
United States since 2001, not to mention the support provided 
in Iraq, Afghanistan, and many other areas around the world.
    In Mississippi, we are proud to host bases at which airmen 
are trained for a wide range of jobs from pilots to electronics 
technicians. This training provides the foundation for many of 
the brave men and women of the Air Force who contribute to our 
nation's air and space superiority. They operate or support the 
fighters, bombers, gunships, tankers, unmanned aircraft and 
space assets that are so vital to the success of our forces 
worldwide.
    Mr. Secretary and General Moseley, we look forward to 
hearing your testimony to help us determine how best to address 
the needs of the Air Force, so you can accomplish the important 
missions assigned to you in support of our national security. 
Thank you, and the service members you represent, for your 
service.

    Senator Inouye. Thank you.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, I also look forward to the 
testimony today. I share the concern that Senator Stevens just 
voiced. I do know that there is proprietary information in the 
protest, but I will have some questions regarding both the 
impact on national security, questions that we as policymakers 
really have to look at when we are coming to this, and the 
issue of a company that has illegal subsidies that does have an 
impact on their price, as well as our decisions as policymakers 
on the fact that we have a contract going to a company that we 
do as a country have a case against because of those illegal 
subsidies. So I do think it is important for us to explore 
those and to understand as policymakers what decisions we have 
to make in terms of foreign-owned companies and its impact on 
our military and military procurement. I will be raising those 
questions as well.
    And I thank you for the hearing today.
    Senator Inouye. Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much. Let me 
welcome General Moseley and Secretary Wynne. I have been here 
through a lot of Secretaries and Chiefs, and I think both of 
you do a really outstanding job. I appreciate your service a 
lot.
    There are now, I believe, 26,000 airmen and women serving 
from the Air Force in Iraq and Afghanistan and the region.
    The chairman raised the point about funding. I think he is 
right. I think our funding system is broken. We cannot keep 
deciding we are going to fund a substantial portion of our 
military based on emergency supplementals, and we have got lots 
of problems on these funding issues and we are going to need to 
confront them.
    I do not know that I can stay for the entire hearing 
because I have to be on the floor on the budget, but I am very 
interested in when the bomber study that our subcommittee 
required of the Air Force will be completed and where you think 
this is headed, General Moseley.
    I too am interested in the tanker issue. I expect this 
issue is going to get a lot of attention both in this 
subcommittee and outside of the subcommittee.
    I am also very interested in what you are learning these 
days and what you are experiencing with respect to retention 
because retention will determine what kind of an Air Force we 
have, and I am very interested in what happens to the young men 
and women who join the Air Force and how able we are to retain 
their services in the Air Force.
    But having said all of that, let me thank both of you. I 
think you both do a terrific job and I am pleased that you are 
where you are.
    Senator Inouye. Thank you.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. I will 
wait for my observations and questions until my turn. Thank 
you.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I have an opening statement. 
I would ask that it be made part of the record.
    Senator Inouye. Without objection.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, thank you for testifying 
today on the Air Force's fiscal year 2009 budget priorities. I 
also appreciate you being here to answer the inevitable 
questions that will come up regarding your recent tanker 
contract announcement. While there has been a lot of rhetoric 
about the Air Force's decision, I believe the controversy 
surrounding the tanker award is not based on the facts.
    From the very beginning, it appeared clear that the Air 
Force's mission was to select the best tanker for the 
warfighter at the best price for the taxpayer. In a lengthy, 
full, fair and open competition, it was determined that the KC-
30 was superior to the KC-767. The KC-30 has more fuel offload, 
carries more passengers, and transports more cargo, thereby 
giving the Air Force more capability, availability, flexibility 
and dependability. The KC-30 outperforms Boeing's KC-767 not 
only by industry standards, but most importantly, by the Air 
Force's standards. It is clearly the best tanker to meet the 
Air Force's needs.
    However, the recent debate has not surrounded these issues. 
Instead, it has focused on inaccurate job claims and which 
U.S.-based company is ``more American.''
    Mr. Chairman, according to the Department of Commerce's 
job-forecasting tool, the industry standard, Northrop Grumman 
will employ approximately the same number of American workers 
on the tanker contract that Boeing would have employed. The 
prime contractor of the team that won, Northrop Grumman, is 
headquartered in Los Angeles. It is no less an American company 
than is Boeing.
    It is also important to note, neither of these issues were 
factors used by the Air Force when making their selection. If 
the U.S. Air Force and Members of Congress wanted the tanker to 
be a job creation program for Boeing, they would have scrapped 
a competition and sole sourced the contract in the first place. 
Instead, the intent was to provide our men and women in uniform 
with the best air refueling aircraft in the world, at the best 
value for the American taxpayer.
    Finally, it is important to note that according to the 
Congressional Research Service, Congress has never intervened 
to overturn the outcome of a competitive source selection. For 
Congress to do as some Members suggest would be counter to 
longstanding law, require the taxpayer to pay for an aircraft 
that provides less value for the money, and would undermine the 
very integrity of our military acquisition process. Congress 
must remain as objective as possible and let the merits of this 
decision speak.
    Thank you, Mr. Chairman.

    Senator Shelby. I too will be very interested in what you 
have to say about the award of the tanker contract because I 
think some of us had a briefing on it yesterday. We know there 
is a regular order here, that Boeing is going to protest it to 
the Government Accountability Office. That is my understanding. 
And we have a due process. But we would like to hear what you 
and the Secretary say about it because we have more than a 
passing interest in it.
    Thank you.
    Senator Inouye. Thank you very much.
    Mr. Secretary.
    Mr. Wynne. Senator Inouye, Senator Stevens, members of this 
subcommittee, thank you for the opportunity to testify on 
behalf of America's Air Force. Thank you as well for your 
support to our improved readiness via retirement and 
recapitalization. We are working hard to see it through.
    Today we also urge you to pass the pending supplemental, as 
it will help.
    Across the Total Force of Active, Guard, Reserve, and 
civilians, we are America's strategic shield in air, in space, 
and in cyberspace. We are contributing to today's fight with 
increasing ordnance drops and we stand watch at the missile 
fields. We stand ready in the nuclear field, and we are an 
effective air superiority and strike force to both deter and 
dissuade any opponent who may consider our forces to be 
stretched in the global war on terror (GWOT). We are gratified 
to hear that role reaffirmed by the Chairman of the Joint 
Chiefs in a deliberate message to those who might seek to 
dissuade or deter us from our own options in the future.

                   RECAPITALIZATION AND MODERNIZATION

    This is why we seek to move forward, and not backward, into 
fifth generation fighters, into new expeditionary tankers, and 
into new long-range strike assets. We recently awarded the new 
KC-45A air refueling tanker. We believe we accurately followed 
the laws and arrived at a decision selecting the better of two 
very qualified competitors to a published criterion, a major 
step in the Air Force's critical recapitalization and 
modernization effort.
    It is why we seek to modernize space assets as the 
executive agent for space and not see further fragmentation of 
the management of this now vulnerable area. It is why we have 
established the Provisional Cyberspace Command and we see this 
as a warfighting domain in which we need to dominate to remain 
a net centric force for the future.
    Clearly, beyond the global war on terror, we must not lose 
America's asymmetric advantage in strategic forces. Your Air 
Force has been in the fight for 17 years and yet has over the 
same 17 years seen underfunded modernization. We thank you for 
the initiatives to restore fleet management to the United 
States Air Force, a responsibility we do not take lightly.
    When General Moseley and I came to our posts, we set about 
a strategy to restructure our Air Force, to truly develop a 
lean and efficient Air Force in order to husband the resources 
for investment. We do worry about the industrial base and the 
need to look after open lines.
    I am pleased to report to you that the Department and the 
Air Force had indicated a desire to not close the F-22 line and 
to develop the long-range strike asset. It is to these that we 
would like to apply the saved resources over the near term 
while the F-35 proves itself through rigorous tests and is 
effectively capped on production. We ask that you agree with an 
approach for the F-22 aircraft while we work to restore our 
readiness with younger aircraft. The F-35 and the F-22 are 
complementary aircraft. The F-22 is bigger, faster, planned to 
fly higher, and can carry more air-to-air weapons internally.
    Also, with 20 penetrating bombers in our current fleet, it 
is time to develop an alternative there as well. We have talked 
about being underfunded, but here we have worked hard to offer 
a balanced budget, prioritized to best defend America, and we 
will continue to do that over the future years defense 
planning.
    The Air Force Research Laboratory is well engaged in 
technology development, expanding the opportunity for energy 
alternatives while reducing our demand in our fleet and in our 
bases, also in unmanned flight and propulsion, in material 
science, as well as in human effectiveness. In regard to space, 
at Kirtland Air Force Base, New Mexico, a branch of the Air 
Force Research Laboratory is creating inherently defensive 
space assets. In cyberspace, we are focused on career 
development and recruiting at the Air Force Institute of 
Technology and also warfighting schools that we believe are 
key. Combatant commanders and agencies partner with us in this 
increasingly contested domain.
    I have worked in space for almost two decades and have 
worked in commercial and classified space as a supplier and a 
customer. We need consolidated leadership to maintain our 
current strategic advantage. Congress asked for a relook at 
responses to the Space Commission, and we should really 
consider what is in their report. The Air Force is undergoing a 
back to basics, as well as a back to blue, complementary 
efforts to restore a steady demand and a knowledge base. I 
recommend we keep the executive agency where it is.
    I have engaged airmen in both theaters of operation and 
they have asked about the continuation of our presence and the 
continuation of the ground force tasking referred to as in lieu 
of tasking. My answer is they performed so well that, frankly, 
our Army colleagues do not want to give them up. And they do 
perform well, many winning bronze and silver stars. Your Air 
Force is currently protecting the air sovereignty of these 
fledgling nations, and until their air forces can do that, I 
would not be surprised to see our Air Force remain. As a 
result, we are reconsidering force cuts, although we are 
currently continuing to give top priority in our budget request 
to recapitalization.

                           PREPARED STATEMENT

    I again thank you for the privilege of leading the best air 
force in the world. Every day our airmen earn the respect of 
our friends and enemies. We do worry for their quality of life, 
as we seek efficiency and as we implement joint basing, but we 
never worry about the sense of mission that they bring to the 
task. I will not have the privilege to represent them in this 
setting for the force posture again, and I hope I have 
reflected their pride in service as I have felt myself.
    I am prepared to take your questions.
    Senator Inouye. Thank you very much.
    [The statement follows:]

  Prepared Statement of Hon. Michael W. Wynne and General T. Michael 
                                Moseley

                         THE NATION'S GUARDIANS

    The United States Air Force provides the Nation with a powerful 
deterrent force in times of peace, and it sets the conditions for Joint 
and Coalition victory in times of war. For over 17 years, since 
Operation DESERT SHIELD, the United States Air Force has been engaged 
in continuous combat operations. Our Airmen have maintained constant 
watch, deployed continuously, engaged America's adversaries directly, 
responded to human crises around the world, and provided the Global 
Vigilance, Global Reach, and Global Power to secure our Nation.
    Global Vigilance.--The ability to gain and maintain awareness--to 
keep an unblinking eye on any entity--anywhere in the world; to provide 
warning and to determine intent, opportunity, capability, or 
vulnerability; then to fuse this information with data received from 
other Services or agencies and use and share relevant information with 
the Joint Force Commander.
    Global Reach.--The ability to project military capability 
responsively--with unrivaled velocity and precision--to any point on or 
above the earth, and provide mobility to rapidly supply, position, or 
reposition Joint forces.
    Global Power.--The ability to hold at risk or strike any target 
anywhere in the world, assert national sovereignty, safeguard Joint 
freedom of action, and achieve swift, decisive, precise effects.
    Global Vigilance, Global Reach, and Global Power constitute 
America's edge--America's asymmetric advantage that shapes the global 
security environment. Global Vigilance, Global Reach, and Global Power 
are vital to our National Security Strategy, as conveyed through the 
decision superiority they allow, the military options they provide, and 
the influence they command. However, in a world of increasing 
uncertainty, volatility, and accelerating technology, America's edge 
will become a fleeting advantage if we fail to maintain and hone it.
    The United States Air Force executes its missions globally. Its 
warfighting domains cover the entire planet, offering a unique 
perspective. Every day, America's Airmen demonstrate a non-negotiable 
commitment to offer and deliver sovereign options for the United States 
in, through and from air, space, and cyberspace.
    Our Air Force strategic imperatives articulate why these sovereign 
options are necessary to maintain and strengthen our national security 
and global stability. The Air Force is redefining air, space, and cyber 
power through cross-domain dominance--our effort to integrate all of 
our capabilities to exploit the natural synergies across these 
warfighting domains.
    This Statement articulates the major elements of our Air Force 
Posture--our strategy for fulfilling our role in defending the Nation 
and its interests; our contributions to winning the Global War on 
Terrorism; our most critical efforts and concerns; and our top priority 
programs. We will continue to pursue specific programs and initiatives 
to safeguard and strengthen America's military advantages and to 
address major concerns and risks.
    Three overarching Service priorities serve as the organizing 
principles for all of our efforts: Winning Today's Fight; Taking Care 
of Our People; and Preparing for Tomorrow's Challenges. The Air Force's 
top acquisition priorities specifically begin to address our critical 
recapitalization and modernization needs--the new Tanker (KC-X); the 
new Combat Search and Rescue Helicopter (CSAR-X); modern space systems 
to provide capabilities vital to our Joint warfighters; the F-35A 
Lightning II; and a new Bomber we intend to field by 2018.
    We will continue our efforts to modernize and protect America's 
vital air, space, and cyberspace capabilities. We strongly recommend 
extending the existing C-130J production line. We are also concerned 
with preserving America's aerospace industrial base. Additionally, we 
seek relief from restrictions on the retirement of aging, worn-out 
aircraft which are increasingly unsafe, unreliable, and obsolete. The 
Air Force is highly engaged in national efforts to assure sustainable 
energy, and we will continue to push the performance envelope on fuel 
efficiency and renewable energy technologies. We are committed to the 
Joint Basing initiative and want to work through the transfer of total 
obligation authority and real property control without impacting 
command authorities, reducing installation service support, or 
negatively affecting quality of life. Finally, we will continue our 
practice of recruiting and retaining the world's highest quality 
Airmen. We will build upon our successes in achieving Total Force 
Integration of our Regular, Guard, Reserve, and Civilian Airmen.
    America looks to its Airmen to provide dominance that spans the 
air, space, and cyberspace warfighting domains. They need your support 
today to defend the Homeland and to prepare for tomorrow's threats and 
challenges. Full funding and support for America's Airmen will ensure 
America's continued freedom of action; reassure our allies; strengthen 
our partnerships; reinforce our sovereign Homeland defenses; dissuade 
and deter adversaries; and set conditions for Joint and Coalition 
success across the entire spectrum of conflict and crisis.
    We guard the Nation--providing the Global Vigilance, Global Reach, 
and Global Power that underwrite the security and sovereignty of our 
Nation.

                          STRATEGIC IMPERATIVE

    The mission of the United States Air Force is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--to fly and fight in Air, Space, and Cyberspace.
    Today the United States stands at a strategic crossroads. This 
junction is characterized by a global economy accompanied by a 
diffusion of technology, new and increasingly complex economic and 
international relationships, competition for resources and influence, 
and the changing conduct of warfare. From the early days of the 20th 
Century, the United States has played a leading role in preserving and 
protecting international stability, particularly as the number of 
democratic nations grew. This leadership led in large part to the 
current world order and provided the backdrop against which countries 
like Japan, India, and China initiated their unprecedented economic 
growth. We cannot abdicate our position of political and military 
leadership without grave consequences.
Challenges
    Today's confluence of global trends already foreshadows significant 
challenges to our organization, systems, concepts, and doctrine. We are 
at an historic turning point demanding an equally comprehensive 
redefinition of American air power. The future strategic environment 
will be shaped by the interaction of globalization, economic 
disparities, and competition for resources; diffusion of technology and 
information networks whose very nature allows unprecedented ability to 
harm and, potentially, paralyze advanced nations; and systemic 
upheavals impacting state and non-state actors and, thereby, 
international institutions and the world order. The following are 
salient features of this increasingly complex, dynamic, lethal, and 
uncertain environment:
  --Violent extremism and ethnic strife--a global, generational, 
        ideological struggle;
  --Proliferation of weapons of mass destruction and empowering 
        technologies;
  --Predatory and unpredictable regional actors;
  --Increasing lethality and risk of intrusion by terrorist and 
        criminal organizations;
  --Systemic instability in key regions (political, economic, social, 
        ideological);
  --Unprecedented velocity of technological change and military 
        adaptation;
  --Availability of advanced weapons in a burgeoning global 
        marketplace;
  --Exponential growth in volume, exchange, and access to information;
  --Surging globalization, interconnectivity, and competition for 
        scarce resources; and
  --Dislocating climate, environmental, and demographic trends.
    The consequences of not being adequately prepared for a conflict 
should a military peer arise would be severe and potentially 
catastrophic. We must maintain our focus on deterring potential peer 
adversaries from using military threats to narrow our diplomatic 
options, or from embarking on militarily risky courses of action. The 
rapid development and proliferation of high-technology weapons, 
combined with innovative operational concepts, is likely to make these 
global and regional engagements particularly challenging, since power 
balances will be dynamic and the risks of miscalculation and 
misperception high. Therefore, maintaining deterrence will require a 
sophisticated, competitive strategy that assures we maintain required 
military capabilities for today and make sustainable, affordable 
investments for tomorrow.
    Even if we continue to successfully dissuade and deter major 
competitors, their advanced equipment is proliferating worldwide. We 
are bound to confront these weapons systems wherever America engages to 
promote and defend its interests. We must also vigilantly monitor 
adversary breakthroughs and maintain leading edge research and 
capabilities in fields such as cybernetics, nanotechnology, 
biotechnology, electromagnetism, robotics, energy conversion 
technology, and advanced propulsion. We cannot assume the next military 
revolution will originate in the West. Indeed, the hub of innovation in 
science and engineering education has shifted eastward. Therefore, we 
must anticipate innovative combinations of traditional and new 
concepts, doctrines, weapons systems, and disruptive technologies.
    Given this spectrum of threats, the United States must field an Air 
Force capable of assuring our allies, dissuading and deterring 
potential adversaries, and, if necessary, defeating those who choose to 
become our enemies.
The Role of the United States Military
    It is always better to deter hostile intent or win without having 
to fight. Today, the United States military does this by shaping the 
international environment with the potent tools of assurance, 
dissuasion, and deterrence. The principal role of the United States 
military is to defend our Nation and our national interests. Rooted in 
overwhelming capabilities and plainly linked to the national will, two 
powerful tools we exercise in this role are our assurance to allies 
that they need not bow to violent threats and our deterrence of 
potential adversaries. Our armed Services accomplish this role by 
providing a solid foundation of military strength to complement the 
tools of peaceful diplomacy. None of these tools alone can sustain our 
position of international political and economic influence. However, we 
must be prepared to provide our leaders with critical elements of 
United States military power to use in proper combination and in an 
integrated manner to address potential threats to our Nation and our 
interests.
Sovereign Options
    In response to current and emerging threats, the Air Force has 
implemented a strategy based on providing policy makers with sovereign 
options for our defense, covering the spectrum of choices that air, 
space, and cyberspace capabilities offer for solving problems. We use 
this strategy for sovereign options to guide how we organize, train, 
and equip our forces. In peacetime, these options include such 
expedients as: supporting the containment of aggressive states or 
usurping elements of their sovereignty as a means short of war to 
compel positive behavior; signaling opponents of our commitment by 
moving forces into contested regions; and providing humanitarian aid--
to both our allies and potentially hostile populations--to assure them 
of friendly United States intentions. In war, Air Force capabilities 
provide decision makers with a range of options, from supporting Joint 
and Coalition actions in conjunction with allied land and sea forces to 
direct strikes against enemy centers of gravity to accomplish strategic 
and tactical objectives. These options provide the country with 
credible and scalable counters to the full range of potential enemy 
actions and support our goals of assurance, dissuasion, and deterrence. 
These sovereign options are enabled by the asymmetric advantage the 
United States possesses in air and space technology and the way our 
preeminence in air, space, and cyberspace increases the power of all 
United States and Coalition forces.
    Through aggressive development of technology and operational 
concepts, the United States enjoys leadership in space, and in recent 
decades has achieved the ability to gain air supremacy against enemy 
air forces and air defense systems. The history of warfare, however, 
shows such advantages to be fleeting and fragile. Air and space 
preeminence is the key to the ability to accurately strike targets 
within enemy states or enable friendly ground or maritime forces to 
rapidly dominate their respective domains. While United States air and 
space preeminence has transformed the way the United States fights, 
allowing Joint and Coalition forces unprecedented freedom of action in 
all domains, the Nation cannot rest on its laurels. Future preeminence 
is not guaranteed; instead, it must be planned, paid for, developed, 
and fielded.
    More than the ability to win wars, sovereign options increase the 
Nation's strategic flexibility in determining when, how, and where to 
engage an enemy. War is not a matter of convenience. When war is thrust 
upon us, we must have the strategic depth to shape the conditions of 
conflict. From 1991 to 2003, the use of no-fly zones allowed the United 
States to contain the aggressive actions of Saddam Hussein. When his 
aggressive acts drew us into open conflict, the determined use of air 
power as part of a Joint force crushed Iraq's conventional armies. A 
similar fate met the forces of Al Qaeda in Afghanistan. When the 
Taliban were removed from power in 2001 by a combination of air power 
working with Special Forces and indigenous Northern Alliance troops, we 
disrupted Osama bin Laden's plan to operate his global terrorist 
network from the relative sanctuary of the Afghan frontier. In the 
insurgencies that followed these operations, air, space and cyberspace 
power continued to prevent insurgents from massing into guerrilla 
armies, thus diminishing their power and providing friendly forces time 
and territory to establish stability.
    The Air Force's ability to be simultaneously dominant in air, 
space, and cyberspace, has formed the foundation from which we provide 
sovereign options to policy makers. Our ability to operate across these 
domains and defeat our adversaries in each allows the Air Force the 
ability to multiply the power of Joint and Coalition forces or to act 
alone to achieve national objectives. Our Air Force combines 
capabilities in the domains of air, space, and cyberspace to deliver 
Global Vigilance, Global Reach, and Global Power to the Joint force.
Cross-Domain Dominance
    No future war will be won without air, space, and cyberspace 
superiority. Accordingly, the Air Force must be better postured to 
contend with both today's and tomorrow's challenges. To promote and 
defend America's interests through Global Vigilance, Global Reach, and 
Global Power, the Air Force must attain cross-domain dominance.
    Airmen appreciate the interdependence of the air, space, and 
cyberspace domains--actions in one domain can lead to decisive effects 
in any and all domains. Cross-domain dominance is the ability to 
maintain freedom of action in and through the air, space, and 
cyberspace despite adversary actions. It permits rapid and simultaneous 
application of lethal and non-lethal capabilities in these three 
domains to attain strategic, operational, and tactical objectives in 
all warfighting domains: land, sea, air, space, and cyberspace.
    Through cross-domain dominance, the Air Force contributes to Joint 
freedom of maneuver in all warfighting domains. This, in turn, allows 
the Joint Force Commander to achieve desired outcomes across the full 
range of military operations, from humanitarian relief to preventing 
war via dissuasion and deterrence to inflicting strategic paralysis on 
implacable opponents. Without the Air Force's ability to present this 
spectrum of capabilities to the Joint Team in peace, crisis, and war, 
United States national security would be at risk.
Implementing the Strategy
    The Air Force currently provides Joint and Coalition forces with an 
air bridge to the rest of the world and dominance on the battlefield. 
This hard-won capability to dominate air and space will only persist in 
coming decades if carefully nurtured.
    The technology race continues. Today, opponents are studying our 
operations in Iraq and Afghanistan and are rapidly developing counters 
to aging United States air and space superiority technology. These 
adaptive competitors are translating lessons from recent conflicts into 
new warfighting concepts, capabilities, and doctrines specifically 
designed to counter United States strengths and exploit 
vulnerabilities. They are advancing in all domains. For example:
  --``Generation 4-plus'' fighter aircraft that challenge America's 
        existing ``4th Generation'' inventory--and, thus, air 
        superiority--with overwhelming numbers and advanced weaponry; 
        sophisticated integration of electronic attack and advanced 
        avionics; emerging low-observable technologies; and 
        progressive, realistic, networked training.
  --Increasingly lethal integrated air defense systems (IADS) that 
        threaten both our Airmen and aircraft, and could negate weapons 
        used to suppress or destroy these systems.
  --Proliferation of surface-to-surface missiles with growing range, 
        precision, mobility, and maneuverability that are capable of 
        delivering both conventional and non-conventional warheads.
  --Proliferation of unmanned aerial systems (UAS) capable of 
        conducting low observable, persistent, intrusive missions in 
        both lethal and non-lethal modes.
  --Resurgence of offensive counterspace capabilities, including anti-
        satellite (ASAT) weapons, jamming, and blinding.
  --Increasing ability of even marginal actors to surveil the 
        disposition of United States and allied assets through widely-
        accessible, commercially-available means.
    In the coming years our advantage will significantly diminish if we 
do not keep pace by fielding new 5th Generation fighters, modern 
bombers, and modern satellites in sufficient numbers to counter the 
development of advanced anti-air and anti-space technologies and the 
inevitable export of those capabilities to potentially hostile states 
and non-state actors. We must provide our Airmen with the most 
exceptional tools for battle in order to sustain a durable and credible 
deterrent against our adversaries.
    Equally worrisome is the rapidly shrinking aerospace industrial 
base. Historically, America's strength and ability to capitalize on 
advances in air and space technologies hinged largely on its vibrant 
and diverse aerospace industry. This advantage has deteriorated over 
the last decade.
    Beyond advantages in technology and operational concepts, America's 
commitments abroad require an expeditionary Air Force that can engage 
forward in peacetime and fight forward in wartime. While long-range 
bombers and missiles are the ultimate guarantor of United States 
security and power, expeditionary presence reflects United States power 
and is the indispensable source of local and regional assurance, 
dissuasion, deterrence, and, ultimately, sovereign options. Engaging 
forward in times of peace and fighting forward in times of war are 
hallmarks of United States national security strategy. Therefore, the 
Air Force must have sufficient resources and capability to continue to 
maintain a sustainable, rotational base. We must retain sufficient 
manpower and force structure to project influence.
    The mechanism to accomplish this is the Air and Space Expeditionary 
Force (AEF) that provides Joint Force Commanders with a trained and 
ready air, space, and cyberspace force to execute their plans. United 
States influence flows from permanent and expeditionary basing and 
serves to assure allies of United States commitment while deterring our 
adversaries from threatening United States national interests. The Air 
Force works with Combatant Commanders and partner air forces to secure 
basing and counter potential anti-access strategies. We continue to 
develop new ways of projecting power without exposing vulnerabilities, 
and we design systems that facilitate reach-back, thus maximizing 
forward capability while minimizing forward footprint.
    The Air Force can provide Global Vigilance, Global Reach and Global 
Power only so long as it possesses robust capabilities in such areas as 
air dominance; global strike; space superiority; intelligence, 
surveillance, and reconnaissance (ISR); missile defense; special 
operations; air mobility, and cyberspace superiority. Today, electronic 
communications constitute and connect all Joint and Coalition 
capabilities. In an information age, this network allows us to find our 
opponents, process the information, route it to where it is needed, and 
guide our munitions to their targets. Cyberspace vastly increases our 
capabilities but also presents a potential vulnerability our 
adversaries could exploit. Our enemies also increasingly use and depend 
on cyberspace systems. Safeguarding our own capabilities while engaging 
and disrupting the use and purpose of our opponents' capabilities is 
thus increasingly critical to modern warfare.
    If the Air Force is to fulfill its crucial role, we must develop 
and maintain technological leads in the areas of air-superiority, anti-
access penetration, and long-range reconnaissance and strike 
capabilities to hold at risk targets around the world. We must also 
field sufficient strike and full-spectrum mobility assets to assure 
dominance for the Joint Team. We must continue treating space as an 
operational domain by creating architectures and systems that allow us 
to provide the appropriate situational awareness and communications 
capability, giving strategic and tactical advantage to leadership at 
all levels. We must design and develop a force structure to operate in 
cyberspace to our benefit while holding adversaries at risk. While 
doing so, we will continue our series of cross-Service initiatives to 
enhance interoperability and avoid unnecessary duplication of 
acquisition, manning and operations.

                           WIN TODAY'S FIGHT

    We remain committed, first and foremost, to fighting and winning 
the long Global War on Terror (GWOT), sustaining our current 
operations, and providing strategic defense of our Nation. We also 
continue to adapt our ability to deter adversary activities, detect 
enemy locations, and defeat them through direct or indirect actions 
when required--anywhere and at any time.
    America's Airmen are key to Joint success and have proven their 
capabilities applicable and adaptable across the entire spectrum of 
conflict. They are the most battle-tested force in our history. Today's 
GWOT missions are only the latest in a succession of over 17 years of 
continuous combat and expeditionary operations, beginning with our 
initial Operation DESERT SHIELD deployments in August 1990; continuing 
with years of persistent conflict in Southwest Asia, Somalia, the 
Balkans, and Haiti; and through ongoing operations in Iraq, 
Afghanistan, and around the world. The past 17 years have clearly 
demonstrated success at any point along the spectrum of conflict 
requires air, space, and cyberspace superiority.
Maintain Global Vigilance, Global Reach, and Global Power for America
    We are the Nation's premier multi-dimensional maneuver force, with 
the agility, reach, speed, stealth, payload, firepower, precision, and 
persistence to achieve global effects. Dominance of air, space, and 
cyberspace provides the essential bedrock for effective Joint 
operations.
    Today's Air Force provides the Joint Force Commander a range of 
capabilities that set conditions for success. Our Airmen currently fly 
an average of over 300 sorties daily as part of Operations IRAQI 
FREEDOM and ENDURING FREEDOM (OIF/OEF). These sorties include 
Intertheater and Intratheater Airlift; Aeromedical Evacuation (AE); 
Aerial Refueling; Command and Control (C2); Intelligence, Surveillance, 
and Reconnaissance (ISR); Close Air Support (CAS); and pre-planned 
Strike.
    Our Airmen operate on a global scale every day; Air Force 
engagement in the Central Command (CENTCOM) area of responsibility 
(AOR) is only the ``tip of the iceberg.'' The complete picture of Air 
Force engagement includes Airmen deployed to contingencies outside of 
the Continental United States (OCONUS), forward deployed in Europe and 
the Pacific, and employed from their home stations as they execute 
global missions.
    Furthermore, the Air Force is the only Service flying Operation 
NOBLE EAGLE (ONE) missions, which have been continuous since September 
2001. America's Airmen fly fighters, tankers, and Airborne Warning and 
Control aircraft during daily Air Sovereignty Alert operations. 
America's Airmen also command and control these aircraft, maintaining 
vigilance and protection of America's air corridors and maritime 
approaches in defense of our Homeland.
    Since 2001 the Active Duty Air Force has reduced its end-strength 
by almost 6 percent, but our deployments have increased over 30 
percent--primarily in support of GWOT. Approximately 26,000 Airmen are 
deployed to over 100 locations around the world to fight in the GWOT at 
any given moment--fighting our enemies in their own backyard so they 
cannot come to ours. In addition, approximately 208,000 Airmen--178,000 
Regular Air Force Airmen plus 30,000 Guard and Reserve Airmen--fulfill 
additional Combatant Commander (CCDR) requirements, missions and tasks 
24 hours a day, 7 days a week. In other words, approximately 41 percent 
of our Total Force Airmen--including 54 percent of the Regular force--
are globally contributing to winning today's fight and are directly 
fulfilling CCDR requirements everyday.
    Whether controlling satellites, flying unmanned aerial vehicles 
(UAVs), standing strategic missile alert, or analyzing intelligence 
information, Airmen directly engage America's adversaries and affect 
events worldwide every day.

            INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Intelligence, surveillance, and reconnaissance (ISR) is the 
foundation of Global Vigilance, Global Reach, and Global Power. It cuts 
across all domains and affects almost every mission area. Today, ISR 
efforts make up the majority of the operations required to achieve our 
security objectives. These operations range from finding the enemy, to 
deconstructing its network and intentions, to making it possible to 
deliver weapons or other effects on target, to subsequently assessing 
the results of those efforts.
    Intelligence, Surveillance, and Reconnaissance is the linchpin of 
our Effects-Based Approach to Operations (EBAO). It is impossible to 
accurately predict the effect of operations on an enemy system without 
good intelligence; nor can one assess the outcome of delivered effects 
without detailed surveillance and reconnaissance. Intelligence 
requirements for an effects-based approach to operations and effects-
based assessment (EBA) are much more demanding than the old attrition-
based model. The increased intelligence detail necessary for EBAO/EBA 
makes focused reconnaissance and persistent surveillance operations 
ever-more crucial.
    The Air Force has demonstrated its commitment to the importance of 
ISR by establishing a 3-star Deputy Chief of Staff for ISR, the Air 
Force ISR Agency, and formed a global organization for the processing 
of ISR data from a variety of sources. These initiatives demonstrate 
the Air Force has shifted the way it manages ISR capabilities from a 
Cold-War platform perspective to a 21st Century holistic capability-
based approach.
            Strike
    In addition to our ONE missions over the Homeland, America's Airmen 
fly daily OIF and OEF missions, keeping a watchful eye on America's 
adversaries and providing lethal combat capabilities that take the 
fight to our enemies. In 2007, America's Airmen conducted nearly 1,600 
strikes in Iraq and Afghanistan. In Iraq alone, Air Force strikes 
increased by 171 percent over the previous year, while in Afghanistan 
strikes increased by 22 percent. These increases clearly demonstrate 
the applicability, flexibility, and prevalence of Air Force combat 
options in ongoing OIF and OEF counterinsurgency operations.
    Engaging directly is only a small portion of what the Air Force 
provides. To meet current and future challenges, we must maintain a 
credible deterrent that convinces potential adversaries of our 
unwavering commitment to defend our Nation, its allies and friends. One 
prominent example is our ICBM force--the United States nuclear arsenal 
continues to serve as the ultimate backstop of our security, dissuading 
opponents and reassuring allies through extended deterrence. Besides 
continuing the re-capitalization of our fighter force, we must also 
modernize our bomber and ICBM forces.
            Space
    Space superiority, like air superiority, has become a fundamental 
predicate to Joint warfighting. Indeed, America's space superiority has 
completely transformed the way America fights. America's Airmen 
currently operate 67 satellites and provide command and control 
infrastructure for over 140 satellites in total, providing the Nation 
persistent global communications; weather coverage; strategic early 
warning; global Positioning, Navigation and Timing (PNT); signals and 
ISR capabilities--all vital to Joint success.
    Space superiority relies on assured access to space, and Air Force 
launch programs continue to provide this capability. In 2007, we 
extended our record to 56 straight launch successes, including 
deployment of two new Global Positioning System (GPS) satellites. Also 
in 2007, we successfully launched the first operational Evolved 
Expendable Launch Vehicle (EELV) heavy lift rocket. This rocket 
deployed the final satellite in the Defense Support Program (DSP) 
constellation of ballistic missile warning satellites.
            Airlift
    Airlift is an Air Force core competency, and our Airmen prove it 
everyday. Air Force airlifters--both Intertheater and Intratheater--
have become absolutely indispensable to Joint Forces in Iraq and 
Afghanistan as well as to crisis response planners and responders in 
the wake of natural disasters both at home and abroad. The Air Force 
gives America an air bridge--a strategic asset providing operational 
reach--making possible the deployment and employment of Joint combat 
power and humanitarian relief.
    Airmen provide the Nation's ground forces with the tactical, 
operational, strategic, and logistical reach to rapidly deploy, 
deliver, supply, re-supply, egress, and evacuate via air anywhere in 
the world. In Iraq, Air Force airlift delivers approximately 3,500 
equivalent truckloads of cargo in an average month, taking more than 
8,600 people off dangerous roads and providing the Army and Marine 
Corps the flexibility to re-assign those vehicles and associated 
support troops to alternate missions and safer routes.
            Aeromedical Evacuation
    Air Force Aeromedical Evacuation (AE) is a Total Force, combat-
proven system contributing a unique, vital capability to the Joint 
fight. AE and enroute care are built on teamwork, synergy, and Joint 
execution, providing Soldiers, Sailors, Marines, Coast Guardsmen, and 
Airmen the highest casualty survival rates in the history of warfare. 
Casualties treated in our deployed and Joint theater hospitals have an 
incredible 97 percent survival rate.
    Since late 2001, we have transported more than 48,500 patients from 
the CENTCOM AOR to higher levels of care. We continue to refine this 
remarkable capability and the enroute care system built upon our 
expeditionary medical system.
            Joint Force Land Component Tasks
    Of the approximately 26,000 Airmen currently deployed in the 
CENTCOM AOR, over 6,200 are performing tasks and missions normally 
assigned to the Land Component--also known as ``In Lieu Of'' (ILO) 
tasks. Airmen currently fill other Services' billets in some of their 
stressed skill areas and are taking on tasks outside Air Force core 
competencies. Since 2004 we have deployed approximately 24,000 Airmen 
in support of such ILO tasks, and we expect a steady increase in that 
total.
    In addition to the 6,200 Airmen currently deployed supporting ILO 
taskings, over 1,000 Airmen are ``in the pipeline'' for ILO Task 
training at any given time. Within the Joint Team, Airmen provide the 
Joint Force Commander distinctive skills. While complementary, these 
skills are not interchangeable amongst the team, thus Airmen require 
ground-centric combat training to accomplish ILO taskings. This 
training increases personnel tempo (PERSTEMPO) for our Airmen, but, 
more importantly, ILO tasks and training consumes critical training 
time, resources, manpower, and in some cases reduces overall 
proficiency in Air Force core mission areas. In many cases, Air Force 
career fields already at critical manning levels are further affected 
by unit deployment rates of as high as 40 percent, primarily filling 
ILO taskings. Such high deployment rates from units cannot be absorbed 
without putting at risk the critical missions and capabilities the Air 
Force provides our Nation. This situation creates additional risk to 
the critical missions the Air Force performs and capabilities the Air 
Force provides our Nation.
Strengthen Global Partnerships
    Fighting and winning the GWOT requires commitment, capability, and 
cooperation from our allies and partners around the world. We depend on 
them to secure their territory, support regional stability, provide 
base access and overflight rights, and contribute a host of air, space, 
and cyber power capabilities as interoperable Coalition partners.
    So America's strategic partnerships are more important than ever. 
Our Air Force will strengthen and broaden international relationships, 
capitalizing on the global community of like-minded Airmen while 
attending to interoperability between allies and partners. Building 
these relationships not only expands, extends, and strengthens Global 
Vigilance, Global Reach, and Global Power, but also leverages the Air 
Force's value as an engine of progress and, thus, as a potent 
instrument of America's diplomacy in an increasingly interconnected 
world.
    The Air Force strives to develop synergistic, interoperable air 
forces utilizing a capabilities-based approach. Foreign Military Sales 
and Direct Commercial Sales allow our partners to operate common 
systems with the Air Force while providing a vehicle to expand 
relationships with our international partners. Some recent examples of 
mutually beneficial agreements include Australian, Canadian, and 
British selection of C-17 Globemaster III airlifters; international 
participation in the F-35A Lightning II Joint Strike Fighter (JSF) 
program and the Advanced Extremely High Frequency (AEHF) satellite 
communications program; British Royal Air Force procurement of MQ-9 
Reaper UAVs; and Australian participation in the Wideband Global SATCOM 
(WGS) system. Future opportunities for partnerships--with platforms 
such as UAVs, C-17s, C-130Js, and the new C-27--can open doors for 
greater interoperability, personnel exchanges, common doctrine, and 
training.
    In addition to integrating international partners into the most 
robust combat training scenarios, we maintain our commitment to the 
pursuit of partnerships for greater global cooperation, security, and 
stability. We recently held the 3rd Global Air Chiefs Conference in 
Washington, DC, which gave over 90 international Air Chiefs the 
opportunity to learn, understand, and share concerns and issues with 
fellow Airmen from around the world. We are also making strides to 
improve language expertise and cultural understanding through 
deliberate development of Airmen in the International Affairs 
Specialist program, expanding Military Personnel Exchange Program, and 
cultivating skilled and knowledgeable attache.
    The Air Force's approach to operations, interoperability and 
training exemplify our global, international, and expeditionary 
perspective--built on the shared traditions of airmanship that 
transcend geographic boundaries.

                        TAKE CARE OF OUR PEOPLE

    Any organizational renaissance begins with people. We must prepare 
our Airmen for a future fraught with challenges, fostering their 
intellectual curiosity and ability to learn, anticipate, and adapt. 
Because our expeditionary Airmen must be prepared to deploy and ready 
to fight, we are revitalizing the world's most advanced training system 
and expanding their educational opportunities. While we enrich our 
Airmen's culture, leadership, training, education, and heritage, we 
will also continue to care for their families and provide for their 
future.
    Our Airmen are our most precious resource. They must be well-
trained and ready for expeditionary warfighting responsibilities. 
Fiscal constraints dictate that we continue to carefully shape the 
force. Additionally, within the context of rising costs, we remain 
committed to providing the highest possible quality of life standards 
and charting out a career full of education and training for each 
Airman. We will continue our emphasis on recruiting and retaining the 
world's highest quality Airmen. Additional Air Force high priority 
efforts serve to reinforce a warrior ethos throughout our Service, 
provide proactive force health protection, and encourage Air Reserve 
Component (ARC) volunteerism.
    Spanning six decades of Air Force history, particularly over the 
past 17 years, our Airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundations for this well-deserved reputation are the quality and 
frequency of the training and education we provide and our commitment 
to the highest possible safety and quality of life standards.
Shape the Force
    Ultimately, we must produce a Total Force that is sized and shaped 
to consistently meet current and future requirements--balanced against 
the compelling need to maintain high quality of life standards--to meet 
the global challenges of today and tomorrow.
    During the 1990s, while engaged in continuous combat, the Air Force 
suffered a seven year ``procurement holiday.'' Today, fiscal 
constraints have tightened as energy and health care costs have 
continued to increase dramatically.
    In late 2005, the Air Force reduced its end strength by 40,000 
Active Duty, Guard, Reserve and civilian Full-time Equivalents (FTEs) 
in order to self-finance the vital re-capitalization and modernization 
of our aircraft, space, and missile inventories. End strength reduction 
by 40,000 FTEs over a 3-year period was our only viable alternative to 
preserve the required investment capital.
    Our Force Shaping efforts have placed us on a path to meet our end 
strength targets. However, personnel changes of this magnitude come 
with a degree of uncertainty and difficulty for our Airmen and their 
families. We are making every effort to use voluntary measures to shape 
the force with the right skills mix, increase manning in stressed 
career fields, leverage new technologies, and refine our internal 
processes to reduce workload and reduce or eliminate unnecessary work 
through Air Force Smart Operations 21 (AFSO21).
    We have reduced our Air Force end strength using a methodology that 
has preserved a strong expeditionary capability. Our AEF construct 
provides an enterprise view of Service risk that synchronizes our 
resources and assets to support our global requirements. However, 
reducing Air Force end strength further, coupled with ILO taskings for 
the foreseeable future, carries considerable risks of ``burning out'' 
our Airmen in several critical expeditionary career fields as well as 
limiting our future national options to meet global mission 
requirements in an increasingly volatile world.
Ensure Highest Quality of Life Standards
    Our ``People'' priority demands we ensure the quality of life we 
offer our Airmen meets the highest possible standards. Because the 
nature of our Air Force mission demands a highly educated, trained, and 
experienced force, we recognize the direct linkages between quality of 
life issues and their impact on our recruiting, retention, and, 
ultimately, our mission capability.
            Housing and Military Construction
    Air Force investments in housing underscore our emphasis on 
developing and caring for Airmen. Through Military Construction 
(MILCON) and housing privatization, we are providing higher quality 
homes faster than ever. With the fiscal year 2009 funding, we will 
revitalize more than 2,100 homes through improvement or replacement. We 
are on track to meet our fiscal year 2009 goal of eliminating 
inadequate housing at overseas locations.
    MILCON is an essential enabler of Air Force missions; however, due 
to fiscal constraints, we must reduce funding and accept greater risk 
in facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment. However, 
our new construction projects are state of the art, incorporating 
energy efficient features and sustainable designs. We have prioritized 
the most critical requirements to support the Air Force and DOD 
requirements. Our MILCON plan supports these priorities by focusing on 
new mission beddowns, training, and depot transformation, as well as 
dormitory and child care center upgrades.
Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in a Joint environment without compromising Air Force 
principles and the well-being of our people. Joint Basing initiatives 
are no exception. To guarantee success, each Joint Base should be 
required to provide a suitable setting to all of its assigned 
personnel, their families, and other customers within the local 
communities our bases support.
    To accomplish this, we advocate establishment of a common Joint 
Base quality of life standard. Our Airmen, Soldiers, Sailors, Marines, 
DOD Civilians and their families will benefit from efficient, 
consistent installation support services. Such standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of installation support services they deserve. As we 
work with the Office of the Secretary of Defense and our sister 
Services, we will ensure all Joint Basing initiatives contribute to the 
DOD's ability to perform its mission. We will also safeguard against 
potential negative impacts to the Joint and Air Force approach to 
mission performance.
    To do this, we will have to work through the transfer of TOA and 
real property without eroding the local installation commander's 
prerogatives relative to satisfying mission and training requirements, 
optimizing installation resources, tailoring installation services to 
local needs, and prioritizing MILCON funding. We will also have to work 
through the transfer without reducing the combat capability our bases 
generate, installation service support standards, or the quality of 
life for Service members, their families, and other customers of these 
services.
    We look forward to establishing a BRAC-envisioned executive agency 
agreement involving local leaders and the local unit commander. Such an 
agency, combined with elimination of duplicate offices and 
administration of centrally agreed standards, would improve efficiency 
while safeguarding mission requirements and quality of life for 
families and Service members. We believe the natural, direct feedback 
and tension between a service provider and a paying customer is the 
best model to drive efficiency and cost savings.
    The Air Force remains committed to ensuring that all bases, Joint 
or otherwise, maintain their capability to perform their missions and 
meet our quality of life standards. We want Joint Bases to be so 
efficient and effective that an assignment to a Joint base would be a 
highlight for every Service member.
Recruit, Train, and Retain Highest Quality Airmen
    The Air Force is the ``Retention Service''--we recruit, train, 
develop, and retain the best America has to offer. Our emphasis on 
retention stems from the high technical and operational expertise 
required of our personnel. The high morale, cohesiveness, and 
capability of the Air Force are due to our efforts to retain a highly 
experienced, educated, and skilled force.
    The Air Force has never lowered its recruiting standards. We 
continue to recruit and choose the best America has to offer from our 
diverse population. Our recruiting and retention figures remain 
impressive, clearly indicating our success to date and the 
effectiveness of the Air Force's holistic approach to quality of life, 
recruiting, and retention. This success reaffirms our commitment to 
long-term family support efforts, education, and training.
    While we recruit Airmen, we retain families. We believe our Airmen 
should never have to choose between serving their country and providing 
for their families. Quality of life and family support are critical 
elements of our overall effort to retain high quality Airmen. As part 
of our efforts to maintain high quality of life standards, we are 
concerned with the hardships facing our Air Force families resulting 
from the frequent moves our Airmen and other Service members make 
throughout their careers. We applaud ongoing Congressional and 
interstate efforts addressing such issues as transfer of educational 
credits for military members and dependents, professional 
certifications for military spouses, and economic support for military 
families coping with spousal income disadvantages.
    Additionally, Air Force training initiatives continue to evolve, 
improving our ability to develop and retain the world's best air, 
space, and cyberspace warriors. We are concentrating our efforts to 
reprioritize Air Force professional education opportunities to reflect 
a balance between winning today's fight and preparing for tomorrow's 
challenges.
    Tuition assistance continues to be a strong incentive that helps 
ensure we meet our recruiting and retention goals. We believe voluntary 
education, facilitated with tuition assistance, not only aids in 
recruiting and retention, but further reinforces national strength and 
richness by producing more effective professional Airmen and more 
productive American citizens for the Nation, both during their 
enlistment and their eventual return to civilian life.
    Within the last 2 years we have taken several initiatives to 
``intellectually and professionally recapitalize'' our Airmen. We are 
developing leaders with the management acumen, cultural sophistication, 
international expertise, and language skills to successfully lead a 
diverse, globally engaged force. Air Education and Training Command and 
Air University are leading our efforts to reinvigorate the world's most 
advanced educational system for Airmen by expanding our full-spectrum 
educational opportunities.
    Finally, we optimized and expanded our training regimes to take 
advantage of more modern methods and broader scope in our live 
exercises. RED FLAG exercises now offer two venues, Nevada and Alaska, 
with varied environments; take advantage of Distributed Mission 
Operations technologies; include Total Force Airmen from the Regular 
and Reserve Components; and offer the full range of integrated 
operations, offering realistic training for warriors from across the 
Services, Components, and our international partners.

                   PREPARE FOR TOMORROW'S CHALLENGES

    In addition to taking care of our Airmen and training them for the 
full-spectrum challenges we expect this Century, it is also our 
responsibility to ensure our Airmen have the weapons and equipment 
necessary to provide for our Nation's defense.
    The United States cannot take advantages in air, space, and 
cyberspace for granted. Today, we are already being challenged in every 
warfighting domain. The Air Force is actively formulating innovative 
operational concepts to anticipate, adapt to, and overcome future 
challenges. We are transforming our thinking from considering the space 
and cyber domains as mere enablers of air operations to a holistic 
approach that recognizes their interdependence and leverages their 
unique characteristics. We will continue to push this conceptual 
envelope and expand the boundaries of existing tactics, techniques, and 
procedures to fully exploit the synergies of cross-domain dominance.
    But we cannot hone America's edge without modernizing the Air 
Force's air, space, and cyberspace capabilities. We are therefore 
pursuing the biggest, most complex, and most important recapitalization 
and modernization effort in Air Force history. These programs will gain 
and maintain militarily important advantages for our Nation for the 
coming decades.
Top Acquisition Priorities
    The Air Force's top acquisition priorities begin to address our 
critical recapitalization and modernization needs--the new Tanker (KC-
X); the new Combat Search and Rescue helicopter (CSAR-X); modern space 
systems to provide capabilities vital to our Joint warfighters; the F-
35A Joint Strike Fighter; and a new Bomber we plan to field by 2018.
    Additional high-priority acquisition programs include F-22 5th 
Generation fighter production; C-17 production; continued production of 
the C-130J and introduction of the C-27 intratheater airlifter; and 
expansion of the MQ-1 Predator, MQ-9 Reaper, and RQ-4 Global Hawk UAV 
inventories.
            New Tanker (KC-X)
    The KC-X is our highest procurement priority. It is critical to the 
entire Joint and Coalition military team's ability to project combat 
power around the world, and gives America and our allies' unparalleled 
rapid response to combat and humanitarian relief operations alike. KC-X 
tankers will provide increased aircraft availability, more adaptable 
technology, more flexible employment options, and greater overall 
capability than the current inventory of KC-135E and KC-135R tankers 
they will replace. It is imperative we begin a program of smart, steady 
reinvestment in a new tanker--coupled with measured, timely retirements 
of the oldest, least capable KC-135E tankers--to ensure future 
viability of this unique and vital United States national capability.
            New Combat Search and Rescue Helicopter (CSAR-X)
    The Air Force organizes, trains, and equips dedicated forces for 
the Combat Search and Rescue (CSAR) mission. The Air Force must 
recapitalize our CSAR forces to maintain this indispensable capability 
for the Nation and the Joint Team. Purchasing the entire complement of 
programmed CSAR-X aircraft will relieve the high-tempo operational 
strain placed on the current inventory of aging HH-60G Pave Hawk 
helicopters.
    The CSAR mission is a moral and ethical imperative. Airmen are 
responsible for safely securing and returning our Airmen and members of 
the Joint and Coalition team. The CSAR-X helicopter will provide a more 
reliable, more responsive capability for rapid recovery of downed, 
injured, or isolated personnel in day or night, all weather and adverse 
conditions, as well as support non-combatant evacuation and disaster 
relief operations.
            Space Systems
    Air Force communications, ISR, and geo-positioning satellites are 
the bedrock of the Joint Team's ability to find, fix, target, assess, 
communicate, and navigate. While many of our satellites have outlived 
their designed endurance, they are generally less durable than other 
platforms and sensors. Over the next 10 years we must recapitalize all 
of these systems, replacing them with new ones that enhance our 
capabilities and provide mission continuity, maintaining the asymmetric 
advantages our space forces provide our Nation.
    The WGS system, AEHF, and the Transformational Satellite 
Communications (TSAT) program will assure a more robust and reliable 
communications capability designed to counter emerging threats and meet 
expanding Joint communications requirements.
    The GPS II-F and III programs will add a more robust PNT capability 
to America's established GPS constellation. GPS III will utilize a 
block approach to acquisition and will deliver enhanced civil and 
military PNT capabilities to worldwide users.
    The Space Based Infrared System will enhance the Air Force's early 
warning missile defense, technical intelligence, and battlespace 
awareness capabilities through improved infrared sensing, missile 
warning, and data processing.
    The Air Force will continue to develop space situation awareness 
(SSA) capabilities to help protect space assets from future threats. We 
are also pursuing more robust space protection measures to warn of 
attacks, provide redundant command and control, harden electronics, and 
defend against direct attacks. The Space Based Space Surveillance 
(SBSS) system will be the first orbital sensor with a primary mission 
of SSA. This system, along with other developments such as the Rapid 
Attack Identification Detection and Reporting System will improve our 
ability to characterize the space environment--the friends and foes 
operating in it, and the objects traversing it.
            F-35A Lightning II (Joint Strike Fighter)
    The F-35A Lightning II will be the mainstay of America's future 
fighter force, providing an affordable, multi-role complement to the F-
22 Raptor. In addition to fielding advanced combat capabilities, the 
Lightning II will also strengthen integration of our Total Force and 
will enhance interoperability with global partners.
    The F-35A Lightning II boasts 5th Generation, precision engagement, 
low-observable (stealth), and attack capabilities that will benefit not 
only the Air Force, but also the Navy, Marines, and our international 
partners involved in the program. The F-35A is the Conventional Take-
off and Landing (CTOL) variant, and it will replace, recapitalize, and 
extend Air Force F-117, F-16, and A-10 combat capabilities. The F-35A 
also serves as the recapitalization program for our international 
partners' aging F-16s, F-18s, and other 4th Generation fighter 
aircraft.
    Complete dominance of the air and freedom of maneuver for the 
entire Joint force demand the complementary capabilities of the F-22 
and F-35A 5th Generation of fighters. Together, they promise the 
ability to sweep the skies, take down the enemy's air defenses, and 
provide persistent, lethal air cover of the battlefield. The leading 
edge capabilities of the F-35A, in development and low rate production 
now, will provide an affordable, Joint Service, international 
complement to the F-22.
            New Bomber
    Range and payload are the soul of an Air Force. These capabilities, 
along with precision, lethality, survivability, and responsiveness are 
fundamental to modern strategic military deterrence, and apply across 
the full range of military operations--from tactical to strategic, 
kinetic to non-kinetic. And yet our Nation has just 21 bombers 
currently capable of penetrating modern air defenses. Even these B-2 
Spirit stealth bombers have limitations and will become relatively less 
capable and less survivable against advanced anti-access technologies 
being developed and fielded around the world. Furthermore, our current 
bomber inventory is becoming more costly to operate and maintain. 
Indeed, some suppliers for spare parts no longer exist.
    The Air Force is therefore pursuing acquisition of a new Bomber by 
2018 and in accordance with Quadrennial Defense Review goals for long 
range strike capability. This next generation bomber will feature 
stealth, payload, and improved avionics/sensors suites, and will 
incorporate highly advanced technologies. It will also bring America's 
bomber forces up to the same high standard we are setting with our F-22 
and F-35A 5th Generation fighters, and ensure our bomber force's 
ability to fulfill our Nation's and the Combatant Commanders' global 
requirements.
Improve our Global Vigilance, Global Reach, and Global Power
    Because Global Vigilance, Global Reach, and Global Power constitute 
America's edge, we must continually hone our ability to provide them. 
Our acquisition programs aim to broaden Global Vigilance, extend Global 
Reach, and strengthen Global Power advantages for America.
            Broaden Global Vigilance
    The Air Force provides the global eyes and ears of the Joint Team 
and our Nation. Using a vast array of terrestrial, airborne, and 
spaceborne sensors, we monitor and characterize the earth's sea, air, 
space, land, and cyberspace domains around the clock and around the 
world. The information collected through surveillance and 
reconnaissance, and converted into intelligence by exploitation and 
analysis, is used to formulate strategy, policy, and military plans; to 
develop and conduct campaigns; guide acquisition of future 
capabilities; and to protect, prevent, and prevail against threats and 
aggression aimed at the United States and its interests. It is relied 
upon at levels ranging from the President and senior decision makers to 
commanders in air operations centers to ground units engaged with the 
enemy to pilots dropping precision-guided munitions.
    The future vision of all the United States military Services is 
information-driven. Success will hinge on America's integrated air, 
space, and cyberspace advantages. Air Force assets like the E-8C Joint 
Surveillance Target Attack Radar System, E-3 Airborne Warning and 
Control System, RC-135 Rivet Joint, RQ-4 Global Hawk, MQ-1 Predator, 
and our constellations of satellites contribute vital ISR capabilities 
and networking services that are integral to every aspect of every 
Joint operation. Our recapitalization and modernization plan aims to 
dramatically increase the quantity and quality of ISR capabilities, 
products, and services available to the Joint Team and the Nation. Our 
recapitalization efforts are focused on extending the lifespans and 
capability sets of our workhorse platforms, such as the RC-135 Rivet 
Joint and several space-based assets. We are also working to find and 
leverage previously untapped ISR capabilities such as those on fighters 
carrying targeting pods. Finally, we have made a concerted effort to 
ensure the viability of Air Force space communications, PNT, early 
warning missions, and SSA capabilities to provide uninterrupted mission 
continuity for America and our allies.
            Extend Global Reach
    America's Airmen provide the long legs and lift for Joint 
warfighters' rapid global mobility as well as the long arms for global 
strike and high endurance for global persistence and presence. On a 
daily basis, Air Force intertheater and intratheater airlift and 
mobility forces support all DOD branches as well as other Government 
agency operations all over the world. Yet the increased demand for 
their capabilities and their decreased availability underscore the 
critical need for tanker recapitalization and investment to ensure the 
long-term viability of this vital national capability.
            Strengthen Global Power
    The United States Air Force provides the ability to achieve 
precise, tailored effects whenever, wherever, and however needed--
kinetic and non-kinetic, lethal and non-lethal, at the speed of sound 
and soon at the speed of light. It is an integrated cross-domain 
capability that rests on our ability to dominate the air, space, and 
cyberspace domains.
    The Global Power advantages the Air Force provides the Joint Team 
ensure freedom of maneuver, freedom from attack, and freedom to attack 
for the Joint Team. However, failure to invest in sufficient quantities 
of modern capabilities seriously jeopardizes these advantages and risks 
the lives of our Soldiers, Sailors, Airmen, and Marines.
Retire Aging, Worn-Out Aircraft
    The Air Force has been in continuous combat since 1990--17 years 
and counting--taking a toll on our people and rapidly aging equipment. 
While we remain globally engaged, we recognize the imperative of 
investing in the future through recapitalization and modernization. 
Beyond fielding new aircraft, we must also retire significant portions 
of our oldest, most obsolete aircraft if we are to build a modern, 21st 
Century Air Force. Our aircraft inventories are the oldest in our 
history, and are more difficult and expensive to maintain than ever. 
They require a larger footprint when deployed, and are significantly 
less combat-capable in today's increasingly advanced and lethal 
environment. In the years ahead they will be less and less capable of 
responding to or surviving the threats and crises that may emerge.
    Since 2005, we have attempted to divest significant numbers of old, 
worn out aircraft. However, legislative restrictions on aircraft 
retirements remain an obstacle to efficient divestiture of our oldest, 
least capable, and most costly to maintain aircraft. Lifting these 
restrictions will alleviate considerable pressure on our already 
constrained resources that continue to erode our overall capabilities.
Preserve America's Aerospace Industrial Base
    America's public and private aerospace industrial base, workforce, 
and capabilities are vital to the Air Force and national defense. The 
aerospace industry produced the brainpower, innovations, technology, 
and vehicles that propelled the United States to global leadership in 
the 20th Century. The aerospace sector gave birth to the technologies 
and minds that have made the information age a reality. This key 
industrial sector continues to lead and produce the technologies and 
capabilities America needs to safeguard our future.
    Yet this vital industry has deteriorated over the last decade. We 
have witnessed an industry consolidation and contraction--from more 
than ten domestic United States aircraft manufacturers in the early 
1990s to only three prime domestic aircraft manufacturers today. 
Without funding, in the coming decade production lines will 
irreversibly close, skilled workforces will age or retire, and 
companies will shut their doors. The United States aerospace industry 
is rapidly approaching a point of no return. As Air Force assets wear 
out, the United States is losing the ability to build new ones. We must 
reverse this erosion through increased investment.
    We must find ways to maintain and preserve our aerospace industrial 
capabilities. We must maintain national options for keeping production 
lines open. Complex 21st Century weapons systems cannot be produced 
without long lead development and procurement actions. Additionally, we 
must continue our investment in a modern, industrial sustainment base. 
Air Force depots and private sector maintenance centers have played 
vital roles in sustaining our capabilities and have become models of 
modern industrial transformation. We are fully committed to sustaining 
a healthy, modern depot level maintenance and repair capability.
    Furthermore, we must recognize that these industry capabilities 
represent our national ability to research, innovate, develop, produce, 
and sustain the advanced technologies and systems we will continue to 
need in the future. This vital industrial sector represents a center of 
gravity and single point vulnerability for our national defense.
Extend C-130J Production Line
    Acquisition programs set the stage to field future capabilities. So 
we must make prudent decisions to maintain current production of 
advanced systems in order to reach required force structure goals and 
provide a hedge against future uncertainty. We must maintain and extend 
the existing production lines for C-130J intratheater airlifters. This 
aircraft represent America's best technology and capability.
    We strongly recommend taking action to ensure these vital 
production lines remain open. Maintaining current production lines will 
be critical to revitalizing our force structure, setting conditions for 
future success, and providing America with the option--should 
conditions dictate--to produce additional modern, advanced technology 
aircraft without having to start from square one.
Strengthen Total Force Integration
    The Air Force is dedicated to ensuring our States and Nation get 
the most combat effective, most efficient force possible to accomplish 
our mission faster and with greater capacity, around the world and at 
home. We believe integrating our Total Force is the best way to do 
that.
    America's Airmen set the DOD standard for Reserve Component 
integration. The Air Reserve Component (ARC)--comprised of the Air 
National Guard (ANG) and the Air Force Reserve Command (AFRC)--is an 
operational reserve and an essential element of the United States Air 
Force. We are developing concepts, strategies, force management 
policies and practices, and legal authorities to access sufficient ARC 
forces without the need for involuntary mobilization. Though the Air 
Force is already the model for melding its Guard, Reserve, and 
civilians with its Regular Air Force elements, we can and will push 
this synergy to new levels.
    A distinguishing hallmark of the Air Force is the ease with which 
Total Force Airmen work seamlessly together at home and abroad. From 
the first Reserve Associate unit in 1968 to the full integration of 
Guard and Reserve units into the AEF in the 1990s, the Air Force has a 
well-established history of employing Airmen from all components in 
innovative and effective ways.
    Total Force Integration (TFI) represents a long-term Air Force 
commitment to transformation. TFI maximizes the Air Force's overall 
Joint combat capability, forming a more cohesive force and capitalizing 
on the strengths inherent within Regular, Guard and Reserve elements. 
Including the ARC in emerging mission areas increases the Air Force's 
ability to retain critical skills should Airmen decide to transition 
from the Regular Air Force to the ARC. We will continue to review 
policies and practices--through our Continuum of Service initiative--to 
optimize sustainment support to the warfighting force and further 
integrate personnel management across the Total Force. TFI will be 
critical to meeting the challenges of competing resource demands, an 
aging aircraft inventory, and organizing, training, and equipping for 
emerging missions.
    We are leveraging our Total Force to the greatest extent ever. We 
expect the Total Force to produce the vanguard elements we will need as 
we expand our leading role in cyberspace and explore new cyber 
technologies. Many of our most experienced cyber warriors, having 
attained the high level of expertise required to excel in this domain, 
are found in our Guard, Reserve, and Civilian ranks.
            Total Force Roadmap
    As an integral element of our procurement efforts, we have built a 
global Total Force Roadmap for acquiring and basing new aircraft and 
equipment. Just as our AEF construct seamlessly draws upon all of the 
Total Force components, the beddown of future Air Force aircraft and 
equipment integrates Regular, Guard and Reserve Airmen beginning with 
the first phases of production and basing through Full Operational 
Capability.
    The Roadmap represents a more efficient and flexible force 
structure. Although the Air Force will have a smaller total aircraft 
inventory compared to our current inventory of aircraft, overall Air 
Force capabilities will increase with each next-generation weapons 
system. In numerous instances, the potential locations will capitalize 
on Total Force Integration efforts, creating innovative organizational 
arrangements among Regular, Guard, and Reserve components. This effort 
takes advantage of the inherent strengths of each component.
    The Air Force Roadmap provides a planning construct for the future 
which, if adequately resourced, will result in the required force 
structure that will give our Nation the best capability for Global 
Vigilance, Global Reach, and Global Power across the globe; to reassure 
allies, to dissuade, deter, and defeat adversaries; and to protect the 
Homeland.
Secure the Future
    To maximize the potential advantages of our programs in the future, 
the Air Force is engaging in multiple initiatives to better organize, 
train, and equip our forces. Whether harnessing the complementary 
capabilities of the F-22 and F-35A programs to provide Air Dominance 
for the Joint Team; strengthening our National Security Space 
Enterprise; leading efforts to acquire interoperable Unmanned Aerial 
Systems (UAS); developing Cyber Warriors; or pursuing alternative 
energy solutions with environmentally safe production processes, the 
Air Force continues to investigate and embrace opportunities to secure 
Global Vigilance, Global Reach, and Global Power for our Nation's 
future.
            Strengthen Joint Air Dominance
    America's Airmen are understandably proud of their contributions to 
the Joint fight. Airmen have prevented enemy aircraft from inflicting 
any United States ground force casualties for over 50 years, and our 
Nation must maintain the required capability advantages to continue 
this record in the future. With advancing technology and proliferating 
threats, the Nation also needs the right equipment for the Homeland 
Defense mission to protect civilians on American soil.
    The F-22 Raptor and the F-35A Lightning II JSF are leading-edge, 
modern, 5th Generation fighters. They are not modernized versions of 
old designs. These aircraft reap the benefits of decades of advanced 
research, technology development, open architecture design, and 
operational experience. These fighters are furthermore designed to be 
complementary--the F-22 being superior in speed and maneuverability, 
and the F-35A being optimized for ground attack and multi-role 
capabilities. These fighters will provide the advanced warfighting 
capabilities, aircraft system synergies, and the flexibility and 
versatility required in future environments and engagements.
    Currently in production and fully operational with Total Force 
units in Virginia and Alaska, and with units planned for New Mexico and 
Hawaii, the F-22 is the newest member of the Air, Space, and Cyber 
Expeditionary Force. Airmen are putting the Raptor through its paces--
flying and deploying the world's first and only operational 5th 
Generation fighter. Its attributes of speed, stealth, maneuverability, 
internal weapons carriage, advanced sensors, and adaptable, integrated 
avionics will meet our Nation's enduring national security requirements 
to gain and maintain Joint air dominance in anti-access environments; 
provide powerful sensing capabilities and battlespace situational 
awareness; and precisely engage a broad range of surface targets.
    It is vital to our national interests that 5th Generation fighter 
production capability be preserved. This year the F-35A will continue 
development and begin its ramp-up to full rate production in 2014. 
Continuing production ensures the aerospace industry keeps its 
technical edge, maintains an able workforce to respond to 
uncertainties, and preserves critical skills and production suppliers. 
Uninterrupted production in sufficient numbers of 5th Generation 
fighters remains the lowest risk strategy and best future guarantee for 
homeland air sovereignty and Joint air dominance.
            Lead Joint Unmanned Aircraft System Operational Development
    The Air Force is the world leader for successful, innovative, and 
effective development, acquisition, and operation of Unmanned Aircraft 
(UA) and the UAS that incorporate UAs and the command and control (C2) 
networks and equipment to employ them. Future successful Joint UAS 
acquisitions and operations hinge upon execution of three critical 
elements, which align cohesively with Joint doctrine:
    Develop Joint UA CONOPS.--UA operators serve the global Joint 
mission through interoperability and interdependence. Globally- and 
Jointly-integrated UAS operations and capabilities--from strategic to 
tactical--are necessary for Joint success. CONOPS development must 
focus on accomplishing the Joint mission as opposed to serving 
functional components.
    Standardize and Streamline UAS Acquisitions.--We must develop an 
affordable Joint acquisition strategy for future UAS development, 
organization, and employment. Air Force acquirers and operators 
pioneered UAS development and application in Joint warfare, and have 
established best practices for organizing, training, standardizing, and 
equipping the world's most effective UAS operations squadrons.
    Ensure Airspace Control and Awareness.--Presentation of UA forces 
and capabilities must meet Joint Commander requirements and objectives. 
``Organic ownership'' of UAS capabilities is irrelevant in the context 
of the Joint fight and the Joint Forces Air Component Commander's 
authority and responsibility to control Joint airspace. Homeland 
operations are also becoming increasingly important. We are working 
with all the Services and the Department of Transportation to establish 
Federal Aviation Administration Certifications for UA operations within 
approved civil airspace.
            Lead the National Security Space Enterprise
    Our Nation depends on its space capabilities as an integral part of 
its military strength, industrial capability, and economic vitality. As 
DOD Executive Agency for Space, the Air Force will continue to ensure 
mission continuity in critical areas of communications, PNT, early 
warning, SSA, and ISR. We will also continue efforts to strengthen 
National Space integration and collaboration across DOD, with the 
intelligence community, our interagency partners and our international 
partners.
    Of particular note are our efforts to strengthen America's space 
professionals and science and engineering workforce. These 
professionals will form the fundamental corps who will lead our space 
efforts to success in the future by integrating enterprise level 
architectures; designing, developing, acquiring, and fielding new 
systems; and operating in a dynamic and potentially contested 
environment.
    Additionally, the Air Force is developing capabilities to quickly 
respond to the urgent needs of Combatant Commanders. Operationally 
Responsive Space (ORS) is a tiered capability consisting of spacecraft, 
launch vehicles, and terrestrial infrastructure employed in concert to 
deliver a range of space capabilities to responsively meet Combatant 
Commander requirements in times of war, conflict, or crisis.
    Finally, the Air Force is committed to improving its space 
acquisitions, focusing on flexibility and affordability. Success in 
this endeavor depends on achievable requirements, appropriate 
resources, disciplined systems engineering, and effective program 
management. We focus all of these efforts through a disciplined block 
delivery approach tying together basic Science and Technology (S&T), 
technology development, systems development, and system production 
efforts so concepts first evaluated in S&T will enable a systematic 
transition from development to operations.
            Lead Cyberspace Operational Development
    Current and potential adversaries already operate in cyberspace, 
exploiting the low entry costs and minimal technological investment 
needed to inflict serious harm in and through cyberspace. State and 
non-state actors are already operating within cyberspace to gain 
asymmetric advantage.
    In April 2007, Estonia was the victim of a barrage of cyber attacks 
which brought its technologically sophisticated government to a virtual 
standstill. Insurgents in Iraq, Afghanistan, and elsewhere exploit 
electronics and the electromagnetic spectrum to kill and maim through 
improvised explosive devices (IEDs) and propagate their message of hate 
to the world. Thus, the ability to inflict damage and cause strategic 
dislocation no longer requires significant capital investment, superior 
motivation and training, or technological prowess.
    We seek to deny our adversaries sanctuary in cyberspace while 
assuring our access to and freedom to operate in this domain. Our 
Nation's ability to achieve effects in air, in space, on land, and at 
sea depends on control of and freedom of maneuver in the cyber domain.
    As part of a larger effort to address this need, the Air Force 
stood up a Provisional Air Force Cyberspace Command (AFCYBER) on 18 
September 2007. Our current plan is to activate the AFCYBER MAJCOM on 1 
October 2008. The newly designated AFCYBER will consolidate and 
integrate Air Force cyber capabilities to prepare them to function 
across the spectrum of conflict. These capabilities will include, but 
are not limited to: electronic warfare; network warfare; global command 
and control (C2) integration, and ISR enhancement.
    We will continue to develop and implement plans for maturing cyber 
operations as an Air Force core competency. Our objective is to provide 
flexible options to national decision-makers to deter, deny, disrupt, 
deceive, dissuade, and defeat adversaries through destructive and non-
destructive, lethal and non-lethal means.
            Assure Sustainable Energy
    We are pursuing an aggressive energy strategy and are committed to 
meeting and surpassing the energy goals mandated by the Energy Policy 
Act of 2005 (EPAct 05) and other national policies. We continue to 
pursue a variety of programs aimed at reducing our use of fossil fuels 
and controlling cost growth. Our vision emphasizes a culture in which 
all Airmen make energy conscious decisions. We aim to implement our 
vision with solutions that include alternate sources of domestic energy 
as well as an aggressive drive for greater efficiency in our 
facilities, vehicles, and aircraft.
    Following Presidential direction to reduce dependence on foreign 
oil, the Air Force is aggressively pursuing a broad range of energy 
alternatives. As the DOD's leading consumer of jet fuel, we are 
currently engaged in evaluating alternative fuels and engine 
technologies leading to greater fuel efficiency. We have certified the 
B-52 to fly on a synthetic fuel blend, and are on track to certify the 
C-17 and B-1 in 2008, the F-22 in 2009, and the remainder of all of our 
aircraft expected to be certified by early 2011. In fact, on December 
17, 2007--the 104th anniversary of the Wright Brothers' first flight at 
Kitty Hawk, NC--a McChord AFB, Washington-based C-17 flew the first 
transcontinental flight on synthetic fuel (a 50/50 blend). The Air 
Force goal is to acquire 50 percent of its CONUS aviation fuel via a 
synthetic fuel blend utilizing domestic sources. Our intent is to 
require synthetic fuel purchases be sourced from environmentally-
friendly suppliers with manufacturing facilities that engage in carbon 
dioxide capture and effective reuse. In addition, the Air Force is 
testing renewable fuel resources that will lower CO<INF>2</INF> 
emissions significantly compared to petroleum. Other Air Force 
technology efforts continue to explore high-efficiency aerodynamic 
concepts, advanced gas turbines, and variable cycle engines providing 
higher performance and greater fuel efficiency.
    The Air Force is the renewable energy leader, and we seek to expand 
our portfolio through innovative public-private partnerships and 
evaluations of a wide range of energy proposals at several bases. Last 
year, the Air Force received the Presidential Award for Leadership in 
Federal Energy Management. The Air Force also continued to lead the 
Federal Government in green power purchases, with 37 bases meeting some 
portion of their base-wide electrical requirements from commercial 
sources of wind, solar, geothermal, or biomass. We reached full 
operating capacity--14.5 megawatts--of the largest solar photovoltaic 
array in the Americas at Nellis AFB, Nevada. At Edwards AFB, 
California, Kirtland AFB, New Mexico, and Luke AFB, Arizona, we are 
exploring additional commercial-scale opportunities for solar power. On 
under-utilized land at Malstrom AFB, Montana, we are exploring the 
potential for a privately financed and operated coal-to-liquid plant. 
Finally, as a result of Congressional interest, we have begun 
considering the potential for small-scale nuclear power production on 
Air Force property. As energy leaders, the Air Force is engaging with 
allied and Coalition air force partners to share best practices, 
identify common issues and concerns, and ensure future, sustainable 
energy interoperability.
            Maintain Science and Technology Leadership
    True to our heritage over the past century of powered flight, the 
Air Force continues to maintain the most complex, diverse, and 
ambitious S&T portfolio of all the Services. History clearly 
demonstrates the broad benefits to America of our S&T efforts, in terms 
of military power, industrial capability, economic growth, educational 
richness, cultural wealth, and national prestige. Examples of these 
efforts include aerospace technology and propulsion, materials science, 
advanced computing and communications, atmospheric science, remote 
sensing, medicine, precision timing, weather forecasting, and satellite 
navigation. What has been good for the Air Force has been great for 
America. We are committed to building upon this heritage.
    The Air Force S&T program develops, demonstrates, and tests 
technologies and advanced warfighting capabilities against the spectrum 
of 21st Century threats. As we continue to adapt to a volatile and 
uncertain world, today's focused investment in our S&T program will 
produce the future warfighting capabilities needed to ensure America's 
continued technological preeminence and military flexibility. Major Air 
Force S&T efforts include hypersonics, composites, propulsion, 
nanotechnology, small satellite technology, directed energy, and 
cybertechnology
    Additionally, Air Force S&T organizations work closely with the 
other Services, the Defense Advanced Research Projects Agency, 
Intelligence Community, and other Federal agencies, such as the 
National Aeronautics and Space Administration, as well as partner 
nations. Through these partnerships we leverage efforts, share 
information, and advance state-of-the-art technologies.
    The Air Force S&T Program provides the necessary leadership and 
foundation for future Joint warfighting capabilities, focusing on 
dominance of the air, space, and cyberspace warfighting domains. 
Continued Air Force S&T leadership will be critical to maintaining the 
asymmetric military advantages and broad national benefits our Joint 
Team and the Nation have come to expect and enjoy.

                            AMERICA'S AIRMEN

    United States security and prosperity are best assured when all the 
instruments of national power are orchestrated to work with other 
states to promote a stable and prosperous international system. The Air 
Force directly contributes to United States security by providing a 
unique array of sovereign options for decision makers. These options 
maximize our ability to assure friends and to dissuade and deter 
threats, large and small, across the spectrum of conflict. When 
opponents cannot be deterred, these options magnify the combat 
capability of Joint and Coalition forces and provide a variety of 
alternatives for our political leaders to choose from in pursuit of 
national objectives. We provide the Nation with its most lethal and 
proven force for defeating enemies across the broad range of threats we 
face.
    By exploiting the synergies of air, space, and cyberspace, the Air 
Force provides our Nation with the capability to dominate across 
domains and expand the options available for our sister Services to 
dominate their respective domains. Implementing our strategy requires 
fielding a force of highly trained Airmen with a commanding edge in 
technology and a force structure with sufficient capacity to provide 
the assurance of United States presence. So long as Airmen maintain a 
global presence and hold significant advantages over potential 
opponents, we will continue to provide our Nation with the means to 
lead the fight for global stability and prosperity.
    Our emphasis on assurance, dissuasion, and deterrence reflects our 
conviction that it is far better to convince potential adversaries to 
refrain from the use of military force than to have to defeat them in 
battle. Our success will be measured by conflicts averted as well as 
conflicts fought and won. But we must never forget that our ability to 
assure and deter ultimately flows directly from our unambiguous ability 
to overwhelm swiftly and decisively any adversary who elects to test 
us.
    We are today honing America's edge. Our Airmen have sworn an oath 
to serve their country, and they are meeting and exceeding their 
wartime commitments. We remain focused on our Air Force priorities of 
winning today's fight, caring for our people, and preparing for 
tomorrow's challenges. We are assessing threats in an uncertain world, 
balancing our requirements within fiscal constraints, and managing 
risks as we endeavor to strengthen the asymmetric advantages our Nation 
and the Joint Team currently enjoy.
    We will have neither the buffer of time nor the barrier of oceans 
in future conflicts. The Air Force's Regular component is smaller in 
February 2008 than the United States Army Air Forces was in December 
1941. The character, tempo, and velocity of modern warfare already 
severely test our ability to adapt. Therefore, redefining the Air Force 
for the 21st Century is an urgent national security requirement--not a 
luxury we can defer.
    America looks to Airmen to provide dominance that spans the air, 
space, and cyberspace warfighting domains. Our Airmen are fighting 
today's fight, while standing watch across the frontiers of technology 
and the future. They need your support today to defend the Nation from 
tomorrow's threats. Full funding and support for America's Airmen will 
ensure America's continued freedom of action; increase global 
awareness; reassure America's allies and strengthen our partnerships; 
reinforce our sovereign homeland defenses; and set conditions for Joint 
and Coalition success across the entire spectrum of human conflict and 
crisis.
    We imperil our security, our people, and our way of life if we fail 
to maintain and sharpen America's Edge--the Air Force-provided Global 
Vigilance, Global Reach and Global Power advantages which underwrite 
the defense and sovereignty of our Nation.

    Senator Inouye. General Moseley.

STATEMENT OF GENERAL T. MICHAEL MOSELEY, CHIEF OF 
            STAFF, UNITED STATES AIR FORCE
    General Moseley. Mr. Chairman, Senator Stevens, 
distinguished subcommittee members and staff. Sir, if you would 
allow me to take my time for a verbal statement and introduce 
six great Americans who wear Air Force uniforms to put a face 
on your United States Air Force.
    But first, sir, to this subcommittee, thank you for the 
opportunity for Secretary Wynne and I to discuss the posture of 
the United States Air Force and about our vision for the future 
and strategy to achieve it.

                          SIX AMERICAN AIRMEN

    We brought these six airmen with us today, again, as a face 
on your United States Air Force and a mix of what this United 
States Air Force does every day. Sir, I would like to begin 
with Lieutenant Colonel Brian Turner, a University of Virginia 
graduate. He is a Virginia Air National Guardsman, classic Air 
National Guardsman who flies F-22As at Langley Air Force Base, 
Virginia, in our relationship with the Active and the Guard in 
the 1st Fighter Wing. He is part of the first Raptor Classic 
Association. He is a symbol of that ironclad commitment that we 
have to Total Force integration and to maximizing the strengths 
of the Guard, Reserve, and Active components. He is part of the 
149th Fighter Squadron. He is the assistant director of 
operations, and he has logged over 3,600 hours in the F-16A, B, 
C, and D and the F-22A. He has flown over 300 combat hours in 
Operations Desert Storm, Allied Force, and Iraqi Freedom. One 
of his roles at Langley is flying the F-22A in Operation Noble 
Eagle mission tasking which is over Washington, DC, New York, 
and the east coast to defend the air space of the United 
States.
    Next is Captain Kari Fleming. She is in the 15th Airlift 
Squadron. She is a C-17 pilot at Charleston Air Force Base, 
South Carolina. She is a 2003 graduate of the United States Air 
Force Academy, and Charleston is her first assignment. Still, 
she has amassed 1,200 total flying hours, including 900 in the 
C-17, 124 combat missions, 278 combat hours since 2005 in both 
Operation Enduring Freedom and Operation Iraqi Freedom, 
missions that include air drop, operational air drops, 
aeromedical evacuation, and resupply in sustainment of forward 
bases, as well as main operating bases. She has just returned 
from a deployment to the United States central command area of 
responsibility (AOR), and she was telling me the other day that 
she has landed the strategic airlifter six times in the dirt on 
either dirt airfields or unprepared surfaces. Mr. Chairman, who 
would have thought a few years ago that we would be taking a 
strategic airlifting asset and landing it in the dirt? She has 
done it six times and makes it look easy.
    Next is Captain Scott Nichols. He's an HH-60 combat search 
and rescue pilot of the 55th Rescue Squadron at Davis-Monthan 
Air Force Base, in Arizona. Like Kari, Scott is a United States 
Air Force Academy graduate and he is also a distinguished 
graduate from the Air Force Weapons School. Since May 2002, he 
has been deployed five times, three times to Kandahar in 
Afghanistan and two times to Balad Air Base in Iraq for 
Operation Iraqi Freedom and Operation Enduring Freedom. He has 
logged 2,000 flying hours, including 158 combat hours and 53 
combat support hours. During his combat missions, he has 
recovered special operations aircraft and special operations 
people. He has recovered the remains of fallen comrades and he 
has been credited with saving multiple lives. He is a ``Jolly 
Green'' combat search and rescue guy.
    Sir, as an aside, as a fighter pilot, it is an article of 
faith that the Jolly Green Giants will come and get you, and 
this is the face of our combat search and rescue and what we 
hold so dear inside the United States Air Force as a core 
competency.
    Next is Technical Sergeant Jim Jochum. He's an aerial 
gunner in the Special Operations AC-130 in Hurlburt Field, 
Florida, the 4th Special Operations Squadron. He joined the Air 
Force in August 1989 and spent 5 years as an aircraft 
maintainer before he joined Special Operations. Since November 
1995, he has logged over 4,300 flying hours, 2,500 combat hours 
on 367 combat sorties in the AC-130, in fact, more than anyone 
else in Air Force Special Operations Command. Since October 
2001, he has accrued 892 days deployed, over 3 years. He wears 
an air medal with 16 oak leaf clusters. Mr. Chairman, this is 
the face of Air Force Special Operations.
    Next is Technical Sergeant Michelle Rochelle. She is a lead 
operator in this joint team in cyberspace. She is under the 
tactical control of U.S. Strategic Command's Joint Functional 
Component Command for Network Warfare. She executes combatant 
commander-tasked computer network attack missions and National 
Security Agency-tasked computer network exploitation missions. 
Thus, she has direct involvement in the global war on terrorism 
in supplying strategic intelligence to America's political and 
military leaders. She represents the vanguard of the forces we 
are organizing, training, and equipping to operate in 
cyberspace in this domain for the Nation's combatant 
commanders. She is a reminder that we believe the cyber domain 
is critical and the nexus of all warfighting domains for the 
future.
    Last is Technical Sergeant Michael Shropshire, currently 
the acting Operations Superintendent of the 12th Combat 
Training Squadron at Fort Irwin, California. This is our 
interface with the United States Army's National Training 
Center and our Air Warfare Center at Nellis Air Force Base, 
Nevada. He enlisted in July 1992 as a battlefield airman, and 
he has spent his entire career associated with the United 
States Army. Multiple deployments from Operation Joint 
Endeavor, Bosnia to Operation Iraqi Freedom and Operation 
Enduring Freedom. He has a silver star and a bronze star. The 
silver star was awarded for individual heroic actions while 
surrounded, cut off under a hail of enemy gunfire, in the 
largest sandstorm in four decades in the Middle East. While 
engaged, he coordinated close air support with the delivery of 
12 joint direct attack munitions, or JDAMs, on 10 Iraqi T-72 
tanks while constantly switching from his radio headset to his 
weapon, in fact, killing three enemy soldiers at close range 
while engaged with his Army brothers. He wears a bronze star 
for exceptional performance as a tactical air control party 
member during the 3rd Infantry Division's push on Baghdad.
    So, Mr. Chairman, distinguished subcommittee members and 
staff, I am proud to introduce these airmen to you today 
because they are manifestations of 670,000 Total Force airmen, 
from the Air National Guard, the Air Force Reserve, from our 
air-breathing aviators, and from cyberspace. Everything that we 
hold dear is manifested in these six airmen.
    Thank you again for this subcommittee's strong, consistent 
support for our country's men and women in uniform, soldiers, 
sailors, airmen, marines, and Coast Guardsmen. Mr. Chairman, 
thank you for the opportunity to testify. We look forward to 
your questions.
    Senator Inouye. Thank you very much, General, and to the 
men and women who were just introduced, we are humbled by your 
dedication, your skill, and your courage, and we are extremely 
grateful for the service you have rendered to the people of the 
United States. Thank you very much.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Secretary, General, what the chairman did not say was 
``jealous,'' particularly the F-22.
    I do think your statement really shows the impact of the 
Total Force. We all remember the days when the National Guard 
was flying World War II weary planes when everyone else was 
getting the F-14s or other planes that were modern, and you 
have now transitioned to the Total Force. And I am delighted to 
see that the premier plane of the world is shared by the 
National Guard, and I am sure that they know how lucky they are 
to have it. Isn't that right, General?
    Let me go to the C-17. We are pleased to have a C-17 pilot 
here with us today. But there is no funding in this bill for 
the C-17 this year. It is the third year in a row there has 
been no funding. We have added money in last years, and it is 
going to be very difficult to do this year. And I am not being 
critical. I just want you to help us understand the situation.
    You have indicated that you do not plan to re-engine the 60 
C-5A aircraft that are in your inventory. You will re-engine 49 
C-5Bs and two C-5Cs. But we have, I think, an overwhelming need 
for more C-17s.
    Now, this subcommittee remembers the C-17 too well because 
on three occasions, three other committees of Congress 
literally voted to terminate the C-17, and we insisted that it 
keep going. We have sort of had a paternalistic feeling for the 
C-17, and I wonder why are we in the position that we are in. 
And we discussed this between us, Mr. Secretary and General, 
the other day, but I think it ought to be on the record.
    What are we going to do with regard to the C-17? And in 
particular, the future combat system vehicles will not fit in 
the C-130. What is their future in view of the limitation on 
the C-17s?
    Mr. Wynne. Thank you very much, Senator, for the question. 
What I would like to do is follow through on what I think are 
the budget implications, and I would ask the Chief of Staff of 
the Air Force to talk about the movement of the operational 
goalposts that we have encountered.

                              C-5 AIRCRAFT

    But first, I will tell you, when we assembled the budget, 
there was a lot of uncertainty around the C-5 program. They 
were going through a Nunn-McCurdy breach. The stipulation was 
that we were still subject to the laws, that we cannot retire 
the C-5s. So we had no way to push beyond the 300 aircraft that 
we were subjected to. So from a perspective of the Department, 
the program was essentially run out.
    We felt that the impact to the industrial base would be too 
great, but we did not get a hearing on that regard. We simply 
were told, look, of all of the things that you want, this does 
not come to the top of the list.
    Over the time--and I will let the chief go through the 
operational impact--this airplane has been an incredible 
workhorse. This airplane is doing magnificent work, and so as a 
result of the Nunn-McCurdy finding, we would upgrade only the B 
aircraft to the 52 C-5M, and we would not do anything other 
than bring the C-5A up to international standards with the 
Avionics Modernization Program (AMP). We added to the unfunded 
requirements list, which yourself and the chairman both 
referred to, a quantity of C-17s to indicate that times were 
changing. And the circumstances now merited a relook at this 
system. And we felt that on the unfunded requirements list, you 
all should know that your Air Force is worried that we need to 
make sure that we have this available to us in the future.
    Chief.
    Senator Stevens. Well, before you start, if we do not put 
up some money for C-17s, will that shut down the line?

                                 C-17S

    Mr. Wynne. I will have to take that for the record because 
we have been really working hard to get some international 
customers to extend that line, but as of yet, many of them are 
still on hold-out status. What they want to do is they want to 
have the United States show enough empathy or stick-to-
itiveness that they will come on board and they will be 
supported for the next 20 years. We are trying to be convincing 
to them that they can do that. I believe that was 14 units that 
we have so far, and we are getting indications there are around 
six more out there. If they all come together, it could hold 
off the closure of the line a little bit.
    Senator Stevens. Thank you.
    [The information follows:]

                                 C-17s

    Production Line Status.--With no additional Air Force 
procurement above 190 aircraft, the Boeing C-17 production line 
will begin to shutdown in 2008. The last contracted foreign 
customer aircraft delivery is scheduled for June 2008 and the 
final production line C-17 (Air Force's 190 aircraft) delivers 
in August 2009. The C-17 aircraft have a 34 month build time. 
Boeing is currently at risk protecting long lead items for 10 
aircraft. Without commitment for more procurement, Boeing may 
halt production on protected aircraft.
    Foreign Sales Status.--Australia was on contract for four 
C-17s. The final Australian aircraft was delivered in January 
2008. Canada is on contract for four aircraft; their fourth 
delivery is scheduled for April 2008. The United Kingdom is on 
contract for a fifth and sixth aircraft. The sixth United 
Kingdom C-17 delivery is scheduled for June 2008. There are no 
other orders for C-17s; however, United Kingdom, NATO Strategic 
Airlift Capability, and Qatar (2 aircraft each) are potential 
remaining foreign customers.

    Senator Stevens. General.
    General Moseley. Senator Stevens, thanks for that question.
    First off, we support the President's budget request. Sir, 
as you know from watching this, this is an affordability issue, 
and as we fit the priorities that we have tried to work inside 
the Department inside of that budget, some things just cannot 
be bought. That doesn't change the operational side of it, but 
it is an affordability issue, and in supporting the President's 
budget request, we put those additional aircraft in the 
unfunded requirements list as an open discussion item that if 
we had another dollar, where would we spend it.
    Sir, on the operational side, I will tell you since we have 
done the mobility capability study in 2005, we have effectively 
had some of the goalposts moved on us. We have had the Army and 
the Marines grow by close to 100,000. We have had the Africa 
Command (AFRICOM) in the business of being stood up, which will 
be a direct mobility command requiring mobility assets no 
different than the Pacific Command because of the size.
    We are told that the Army's future combat systems vehicle 
likely will not fit in a C-130, which means we will have to fly 
it in C-17s to be able to support the Army deployed.
    And, sir, most mine resistant ambush protected vehicles 
(MRAP's), of course, will not fit in C-130s. Only the MRAP 
version RG31, category 1 can be transported in a C-130. This 
MRAP is used by special forces and is currently being produced 
by the Army and Marine Corps. We are having to fly those in a 
variety of assets, C-17 as well as C-5.
    And then, of course, C-5 reliability piece that the 
Secretary mentioned on what we are going to be able to afford 
to modify the C-5s takes us to a lower reliability number on 
the C-5s.
    And then, of course, we are utilizing the C-17s at a much 
higher rate. I am told that we take about 3,500 or so convoys 
off the road every month, and we fly close to 9,000 to 10,000 
folks off the roads every month in C-17s and C-130s to avoid 
improvised explosive devices (IED's), to avoid insurgent 
snipers, et cetera.
    So, sir, I think the operational goalpost has moved a bit, 
but this is still an affordability issue with us, and it is 
hard to fit all of that into the top line we have got.
    Senator Stevens. Well, I do not know. I was critical of the 
move from Germany, moving the Air Force down to Aviano. That 
cost $6 billion. I would have rather seen that put into assets 
we need for the continuing warfighters. But it does seem to me 
that we are going to have to find some money to keep that line 
open.
    Will you keep us informed about the foreign purchases, Mr. 
Secretary?
    Mr. Wynne. Yes, sir, we certainly will.

                           ELMENDORF HOSPITAL

    Senator Stevens. Let me ask sort of a question related to 
our own State. The Elmendorf Hospital is now responsible not 
only for care of the Air Force units that are coming back from 
the war zones, but they are also now taking on the duty of 
taking care of people coming back that have been stationed in 
Fort Richardson. This has resulted in a shortage of medical 
specialists to meet the needs of the hospital.
    Now, we talked a little bit yesterday about this jointness 
situation, and Elmendorf and Richardson are really one piece of 
real estate, and they share that area. I am worried, however, 
about the Air Force having the money to take care of the Army's 
soldiers and to give them the care they need. Are you aware of 
that situation up there, Mr. Secretary?
    Mr. Wynne. Well, sir, first, I want to compliment the 
people at the Elmendorf Hospital because they have really tried 
to get Alaskan people to return to the Alaskan area, thinking 
that it was much easier on the families for them to be taken 
care of there at Elmendorf than it would be to have the 
families travel anywhere else. So, first of all, I stand 
somewhat in awe of the miracles that they can pull off and do.
    Second, I am worried about the retention and the 
recruitment of medical specialists really throughout the 
services. I think we need to pay some more attention there. I 
think as this goes on, we will have some stresses and we have 
tried to address those stresses.
    But my first response is I think it was a great idea to put 
some stress on the hospital to get those Alaska Natives, the 
people who are assigned up to Alaska, back so their families do 
not have to be dislocated.
    Senator Stevens. Well, we applaud the decision because, 
obviously, if they were here at Walter Reed or out at the naval 
hospital, they are going to be 3,000 to 4,000 miles away from 
their family and no way to adjust, particularly those who are 
in a wounded situation.
    We applaud the integration of the Fort Richardson care with 
the Elmendorf Hospital, and I think it is cost effective to do 
that for the military.
    The problem is that it does not seem that the Army is 
putting in the additional amounts of effort, and you are 
limited on what you have got. I really think this is a project 
that has a lot of merit because the Elmendorf Hospital is 
supposedly the Air Force hospital of the Pacific. Fort 
Richardson does not have that standing, and it does not have a 
hospital. I would hope that we find some way to maybe add a 
wing or something to Elmendorf Hospital so the Army people will 
feel that they are part of it. We talked about that yesterday 
too. They welcome the assistance of the Air Force, but they are 
not putting in much money to help. I think that they definitely 
need more assistance there. Ms. Ashworth and I visited those 
people several times now.
    Mr. Chairman, instead of having those people come in and 
get evaluated here and stay here for 2 or 3 weeks or months, 
whatever it might be, they are taken home and their people can 
have access to them. But we need the adjunct facilities that 
will represent the same type of care and analysis that they 
would get here, if this is going to work.
    I hope you will really pay some attention to that, Mr. 
Secretary, because I think it is a critical need right now. We 
have the largest number of individuals per capita in the 
military today that have served overseas. We are a small 
population, obviously, but it is a statistic that I think 
merits an understanding of the need of these people who are 
coming home that need critical care.
    Mr. Wynne. Sir, care of our wounded warriors is a primary 
goal of the Secretary of Defense and of myself. What I can do 
is perhaps have the Elmendorf folks do a patient load forecast 
that gives you some basis for a look at whether the assets are 
sufficient.
    Senator Stevens. Senator Inouye points out they have that 
same situation at Tripler, but there it is the Navy working 
with the Air Force. I think that this combination of the Army 
and the Air Force right now is not working that well.
    I do want to submit for the record a question about the 
combat search and rescue helicopter and ask each of you to 
answer that question. It seems to me that the delay there is 
something we ought to know about, and what is causing it. I 
appreciate your concern.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                   TANKER REPLACEMENT CONTRACT AWARD

    Secretary Wynne, I have many questions regarding the 
decision on the aerial refueling tanker, but before I get to 
that, I must raise a related item with you that I am concerned 
about.
    The week of the announcement of Airbus winning the tanker 
competition, there was a paper released by Loren Thompson of 
the Lexington Institute extolling the benefits of the Airbus 
platform and indicating somehow that the Boeing plane was a 
lesser plane. That was right after the decision was made. It 
was prior to Boeing being debriefed and prior to Congress' 
getting debriefing.
    How do you defend the information leaks on this decision 
from the Air Force?
    Mr. Wynne. I cannot defend it. I have inquired and 
conducted an inquiry. I would say that I thought it was a 
travesty for anybody to talk to anybody before we talked to the 
winning and losing candidates.
    Senator Murray. Well, what it looked like from our end was 
that the Air Force was engaging in an ad campaign to fill the 
papers with misinformation that no one could refute because no 
one had been debriefed.
    Mr. Wynne. I actually apologized to the Boeing folks about 
this. It was sort of an unfair, certainly preemptive press 
article.
    Senator Murray. Do you believe a violation occurred?
    Mr. Wynne. Ma'am, I do not know that.
    Senator Murray. I know you stated something similar to that 
yesterday before the House. It leads me to ask how many other 
violations have occurred, who else was talked to, what 
information was given out, who had it, and are there any other 
leaks?
    Mr. Wynne. I would have to say that we try very hard to 
hold a very tight hold. I would say that Loren Thompson seems 
to have sources that are not willing to come forward and say 
that they were the ones.
    Senator Murray. So there are sources within the Air Force 
that were talking to----
    Mr. Wynne. I have no idea.
    Senator Murray. Clearly, I mean, obviously, there had to 
be.
    Mr. Wynne. I have no idea where he got his information 
from.
    Senator Murray. So how are you going to find out?
    Mr. Wynne. I have no means or mechanisms to force a 
subpoena on anybody.
    Senator Murray. Well, that is very troubling because not 
only am I worried about what appears to be a big ad campaign 
before anybody could defend anything or have another story that 
lasted for 1\1/2\ weeks, but if someone is talking to Loren 
Thompson, the question has to be asked who else are they 
talking to. Were they talking to either of the companies? What 
was occurring throughout this process? It leaves a big question 
out there.
    No response?
    Mr. Wynne. No, ma'am. I have told everybody that it is 
improper, and you can only expect that upholding the integrity 
of the process is foremost in everybody's mind.
    Senator Murray. Well, I think it leaves a question for all 
of us on the integrity.
    I have to say I am very perplexed by the outcome of this 
process. After all, the competition was for a replacement of a 
medium-sized KC-135 tanker, but the Air Force selected an 
aircraft larger than the KC-10. I mean, what it looks like from 
my end is that you put out an RFP for a pickup truck to carry 
three-quarters of a ton, and what you selected, at the end of 
the day, was an 18-wheeler. It does not get great gas mileage, 
cannot park where we have parking garages today, and it is a 
completely different concept. So the decision is surprising, I 
think, to everyone.
    But let me ask you, now that you have selected a much 
larger aircraft, what will be the associated cost for our 
military construction budget? Can these Airbus planes fit in 
the hangars that we have today?
    Mr. Wynne. Ma'am, I have done very little work in where it 
goes. I will tell you that it is all part of the evaluation 
that is currently under protest. I will tell you that in the 
request for proposal (RFP) there was no indication of size, and 
I will tell you that in the analysis of alternatives for 
replacing the KC-135, the 330, the 340, the 767, the 777, and 
the 787 were all cited as potential candidates. Every one of 
these suppliers knew the competitors' offerings.
    Senator Murray. Well, Mr. Chairman, in terms of Milcon, I 
think we have to look at longer runways and larger aircraft 
hangars. What is the cost of that? And I hope that we will be 
able to do that.
    Mr. Secretary, I have had a lot of conversations about 
this. I have listened to all the press conferences. I have got 
to tell you I am left with more questions than answers. It has 
become very clear that there were many factors that the Air 
Force did not consider. These include: The pending WTO case 
that the United States now has against the EU regarding the 
illegal subsidies that are provided for the development of the 
Airbus commercial aircraft, the total cost to our Government 
for military construction, the impact of a subsidized R&D on 
the cost for aircraft, potential national security implications 
of outsourcing the backbone of our air superiority to a foreign 
country.
    You know, I have listened to all the Air Force officials 
like Sue Payton and yourself, and I keep hearing the same 
phrase again and again. You said it in your opening remarks. 
``We followed the law and we went by the book.'' Well, the Air 
Force seems to be acknowledging, it seems to me, that there are 
factors of concern that were outside what was required by the 
law to be considered, like national security. And that leads me 
to a very important question.
    Do you feel the procurement process, as it currently 
exists, takes into account all of the factors that should be 
considered when fielding critical defense platforms?
    Mr. Wynne. I will say that the acquisition laws have been 
layered and layered and layered over the years. They are 
extraordinarily complex. It goes to alliances. It goes to 
coalitions. It goes to many aspects of procurement. As you 
know, the Presidential helicopter is, in fact, an international 
offering. The combat search and rescue helicopter (CSAR) has 
international offerings. The C-27 is an international offering. 
It goes to how much of the industrial base of America is 
dedicated. You might not know, but you should know that the 
MRAP's are currently being airlifted by Russian Antonov 
airplanes from Charleston Air Force Base, South Carolina, 
because we believe that is the most efficient way to do it.
    I think if there is a consideration, it has to go very deep 
into how much is America willing to invest in its industrial 
base.
    Senator Murray. Well, is the current process out of line 
from your viewpoint with what is necessary to give a complete 
and accurate picture to meet our defense needs?
    Mr. Wynne. No, ma'am. I think we have gone through this 
over the last several years, and the laws are very clear in who 
they allow to be a competitor.
    Senator Murray. The law is very clear, but I am asking you 
if you think the current procurement process reflects the needs 
of our defense.
    Mr. Wynne. I think right now I worry about the industrial 
base of the future. I think we started to decay our industrial 
base in 1990, and I think our market does not support a large 
industrial base right now.
    Senator Murray. Does the current process put American 
companies at a disadvantage when competing with subsidized 
companies?
    Mr. Wynne. I do not know that. I cannot measure that.
    Senator Murray. Well, Mr. Secretary, this concern is not 
just about utilizing American ingenuity to meet the needs of 
the warfighter. I think we have to consider what an R&D 
investment in a foreign company could lead to. Airbus and EADS 
have already given us plenty of reasons to worry about how hard 
they are going to work to protect American security interests. 
In 2005, EADS was caught trying to sell military helicopters to 
Iran. In 2006, EADS tried to sell transport and patrol planes 
to Venezuela which is a circumvention of U.S. law. They do not 
have to follow our laws, and that really is a concern for me as 
a United States Senator.
    Do you have similar concerns?
    Mr. Wynne. Ma'am, I will tell you from the standpoint of an 
ex-official in the acquisition process, I follow the laws of 
the United States of America to the best of my ability.
    Senator Murray. I have heard you say that many times, and I 
think, Mr. Chairman, that is what gives me pause, that the Air 
Force is following the letter of the law. I think we as 
policymakers have to think whether, to quote a famous author, 
``the law is ass.'' And I think we have to think about whether 
or not our laws are protecting our national security interests, 
our economic interests, and our military infrastructure.
    I have several other questions, but I will wait for the 
next round.
    General Moseley. Senator, might I add a parallel thought to 
my Secretary? Ma'am, I would also say this is about fielding 
capability. This is about being able to field systems on time 
and being able to field systems to replace close to a 50-year-
old airplane that has served us very, very well. To be able to 
look at guardsmen, reservists, or active duty crews, pilots, 
copilots, boomers, or crew chiefs that maintain old airplanes 
and tell them that we will wait while we have the technology 
and the capability to field a new system is something that is 
not a good feeling for a chief of staff. So this is about 
fielding capability to be able to fight this country's wars and 
win.
    Senator Murray. General, I have fought for a long time to 
get these refueling tankers built. I represent men and women in 
my State who fly these. I know they are very old. But I also 
think we as policymakers have to make sure that we are making 
the right policy for future decades about our national security 
and our economic interests for the future and not make a 
mistake in doing that. I want to get those planes up there. I 
want my men and women flying the best, but I do not want my 
national security interest to be at stake as well.
    Senator Inouye. Senator Dorgan.

                             B-52 AIRCRAFT

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me just put in a good word for old airplanes, if I 
might. The B-52 has been around for decades. It is expected to 
last, by your account, by the Defense Department's account, two 
to three more decades. Compare it and the cost to fly it as a 
bomb truck to the B-1 or the B-2 bomber, it is one-third of the 
cost to fly it of the B-2, for example, and much less costly 
than the B-1. Yet, the Air Force's submission to us is to say 
we want to continue to put more of them in Davis-Monthan. We 
want to go down to 56 bombers, B-52s.
    We are funding the F-22 because we are told by the military 
that the F-22 will go in front of everything and knock down all 
the air defenses, and they will do it before anybody ever sees 
them. At that point, with no air defenses, the question is 
which bomb truck do you move in there? Why not the least-cost 
bomb truck if we are short of money? So that raises this 
question of the B-52.

                         NEXT GENERATION BOMBER

    I am in support of the next generation bomber. The 
earliest--earliest--possible date would be 2018, but I think 
all of us understand that is probably not the date that we have 
the next generation bomber. That is what we hope to have. But 
between now and then, what do we do?
    The Air Force has consistently said to this subcommittee we 
want you to go from 94 B-52s down to 56. There are 18 of the B-
52s that are now attrition reserve B-52s, and they are not at 
Davis-Monthan because we are waiting for a bomber study that 
this subcommittee has asked you to do to make sure that we are 
not headed toward a bomber gap if we stick all of these B-52s 
at Davis-Monthan.
    So having that as a background, having said at least one 
kind word about old airplanes here, let me ask you, General, 
what is going to happen with the Air Force and its 
determinations about B-52s? I think the bomber study was 
supposed to have been done last fall. I think it is now 
expected to be out in the next month or two. Can you brief us 
on that?
    General Moseley. Sir, my data says the bomber study is 
undergoing a security review. The Institute for Defense 
Analyses accomplished this independent study as directed by the 
Congress. The Air Force only provided assistance by offering 
factual data and facilitated access to subject matter experts.
    Sir, I will tell you 2018 is a timeline that is doable on 
the new bomber. We have got the plans and programs in place to 
make that happen, and if we can stick to that, if we can let 
the industrial base develop and integrate--because in this 
capability which, of course, we cannot talk much about in this 
forum, we are asking to integrate existing systems, not 
necessarily invent new systems. So 2018 is a doable date.
    You know from watching bombers for as long as you have, the 
B-1, the B-2, and the B-52 are wonderful airplanes, but at some 
point, we have got to have a survivable, penetrating, 
persistent platform that we can go into any airspace and be 
able to persist for the combatant commanders. So I am holding 
to 2018. That is my story.
    Sir, on the B-52s, we have had a couple of things that have 
happened along the way as we submitted the fiscal year 2009 
President's budget request. We are now looking, as we discussed 
before, on taking a squadron of the B-52s and tasking them in 
the nuclear role, unique away from conventional missions, and 
we would rotate that tasking like we do with any of the other 
squadrons in our air expeditionary force (AEF) rotation model.
    General Corley, Commander of Air Combat Command, has not 
come to full detail on this, but I envision taking one of the 
squadrons for a 6-month or a 1-year effective tasking, either 
at Minot Air Force Base, North Dakota, or at Barksdale Air 
Force Base, Louisiana, and making them exclusively nuclear, 
taking the other two squadrons and rolling them into the 
conventional side of this because we still need the ability to 
go to the western Pacific or into the Middle East.
    So, Senator Dorgan, that takes us above 44 combat coded B-
52s. Sir, I do not have the total aircraft inventory (TAI) 
numbers yet because General Corley and I have not been able to 
sit down and flesh out that rotation.
    Senator Dorgan. General, thank you. These bombers are fully 
paid for. They are, again, one-third the cost to fly on an 
hourly basis than the B-2. So I think that is good news in the 
sense that the Air Force has been asking to go to 56, which 
would leave you at 44 combat coded. I understand what you have 
just said.
    I think all of us will await the bomber study because we 
want to have good capability. When I said I want to say a good 
word about old planes, that does not mean--we need new tankers 
and we need a next generation bomber. I understand that, and 
this subcommittee I think will work on it.
    I want to mention two other quick items. Number one, with 
the increase in end strength for the Army and the Marine Corps, 
that raises the question, it seems to me, of whether the Air 
Force has the capability for airlift, close air support, fire 
support for the increases in the Army and the Marine Corps. 
Have you looked at that? What is the situation there?

                         AIR FORCE END STRENGTH

    General Moseley. Senator Dorgan, we have, and that is our 
assessment of the 330,000 end strength. Of course this is like 
the B-52 question. This is an affordability issue, and while we 
support the President's budget request, we are working hard 
inside those fiscal limits to be able to fit all of this 
together. So more to follow on the B-52 side. It is how we put 
that together and rotate those units at Minot Air Force Base 
and Barksdale Air Force Base.
    On the people side, when you look at our plus-up of 
unmanned aerial vehicle (UAV) wings, when you look at our plus-
up of UAV squadrons and wings inside the Air National Guard, 
when you look at our battlefield airmen wing that we have stood 
up, the Army and Marine Corps growth and, of course, the 
attendant Air Force assignments inside the United States Army, 
the brigade combat teams, as that grows, our combat search and 
rescue growth to 141 aircraft, our continued in lieu of 
tasking, which we have about 6,200 folks deployed under that, 
and about 20,000 or so total in the pipeline working either 
going to training or coming back, and then you look at the 
options on a provisional cyberspace command to be able to look 
at that as a force provider for U.S. Strategic Command, sir, 
that takes us to 86 wings to meet the national military 
strategy, the combatant commanders demands, our rotation and 
sustainment model of our 10 AEF's and our abilities to provide 
the capabilities and the capacity forward. That takes us to the 
86 wings and it takes us to that number of about 330,000.

                  UNMANNED AERIAL VEHICLE ACQUISITION

    Senator Dorgan. Is your UAV acquisition on track? We have a 
Grand Forks submission for the UAV. Is the acquisition for 
Predators and Global Hawks on track?
    General Moseley. Sir, with the existing funding, it is. We 
have asked in the unfunded requirements list not only for the 
money for the B-52s, we have asked for a consideration for the 
growth in our end strength, and there is also growth in there 
for additional UAV purchases.
    Senator Dorgan. Mr. Chairman, I want to just make one other 
comment that I want to talk to you about that is not in this 
hearing. I have been taking a look at what has been happening 
with privatization in the military, more in the Army, for 
example, than in the Air Force, but the Air Force is moving, I 
think, rather aggressively now. The hundreds and hundreds--
well, billions of dollars of new housing stock, for example, at 
air bases. My understanding is that there is a proposition to 
privatize and that we will take new housing stock that has been 
built on air bases and we will give them, free of charge, to a 
private contractor who will sign a contract and agree to 
maintain them for 50 years. As I began, my first thought was, 
well, that cannot possibly be the case. I mean, that is 
preposterous.
    But as I began looking into what has been happening on the 
Army side and what the proposals are on the Air Force side, I 
want to have a longer conversation than we would be able to 
have here about this issue of privatization of housing on 
military bases whereby we have new stock that has cost us a lot 
of money and we will turn that over, free of charge, to a 
company who will sign a contract for 50 years. A whole lot of 
companies are not in business after 20 or 30 or 40 years, and 
we are going to give them the free housing stock.
    I will not ask you to answer that, but it is something I 
have become interested in trying to understand to determine 
does this really meet any kind of common sense test in my 
hometown cafe. So, Mr. Secretary, if you and I and General 
Moseley can at some point meet and I can better understand 
what----
    Mr. Wynne. I think we need to bring you the entirety of the 
business plan and we would just have to explain it, and you can 
certainly take a judgment from that.
    General Moseley. Senator Dorgan, one last reminder. Those 
86 wings are Total Force wings. That is a mix of Air National 
Guard, Air Force Reserve, and Active Duty because you know from 
watching us, we do not do anything that we do not do as a Total 
Force.
    Senator Dorgan. Let me just finally say, before my 
colleagues are called on, it is inspiring for you to bring some 
of your airmen along. And to think of landing a C-17 on a dirt 
track someplace in the world--we have got young men and women 
who do extraordinary things all around the world. You inspire 
this committee by bringing them to us. Thank you very much.
    Senator Inouye. Thank you.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, thank you.
    General Moseley, it is great to see you. I am very sorry in 
your new job and in my new role here I do not see you as often 
as I used to. But I can see you and hear about things that are 
taking place in the Air Force, and I am very proud of your 
regime and hope that things are going as well as you had hoped 
and planned for.
    I do want to make an observation with reference to 
infrastructure for manufacturing or the manufacturing 
capability in America and just to give you the benefit of my 
own observation, which leads me to conclude that it must be 
very difficult for you people who serve us to try to get large 
manufacturing contracts issued in a timely manner, then live up 
to expectations, because the United States is not what we were, 
contrary to what our people think and what a good face you put 
on. We have substantially lost our manufacturing capability, 
and we are not doing very well at getting it back. In fact, it 
is getting worse.
    And I will tell you one thing that is contributing 
immensely to it, General. We got by with it before, but $100 a 
barrel oil is ripping America right to the bone. We are getting 
poorer with every passing week as we pay $100 a barrel for oil. 
It is destroying America in ways we do not know right now, but 
it is happening. We are truly getting poorer as a Nation every 
day of the week, every week of the month, and every month of 
the year.
    How could we not when we were dependent for so many years? 
Well, it is one thing to be dependent at $20 and it is another 
thing to be dependent at $100.
    Now, having said that, I am not going to talk about the 
macro problems. I will let the other Senators who have just 
done that do so. I am going to talk about New Mexico a little 
bit with you because we have some exciting things happening 
there.
    Holloman Air Force Base is scheduled to become home to two 
F-22A Raptor Squadrons. Right? I appreciate the Air Force 
budget request for Milcon for Holloman associated with the new 
squadrons. If funds are appropriated by Congress, when will 
that construction be completed?
    General Moseley. Sir, I believe that is about 2011, but if 
you will allow me to take that for the record, I will get that 
information to you.
    Senator Domenici. I would appreciate it if you would give 
that to us.
    [The information follows:]

             F-22 Military Construction at Hollomon AFB, NM

    Construction completion dates for the five fiscal year 2009 
F-22 military construction projects for Holloman AFB, NM are 
shown below:

                          [Dollars in millions]
------------------------------------------------------------------------
                                   Programmed      Estimated Completion
         Project Title               Amount                Date
------------------------------------------------------------------------
F-22 Add/Alter Flight Simulator            $3.2  March 2010
 Facility.
F-22 Add/Alter Aircraft                     1.1  October 2009
 Maintenance Unit.
F-22 Add/Alter Jet Engine                   2.2  January 2010
 Maintenance Shop.
F-22 Alter Hangar Bay for Lo/              14.5  September 2010
 Composite Repair Facility.
F-22 Aerospace Ground Equipment             4.6  March 2010
 Facility.
------------------------------------------------------------------------

   F-22 MILITARY CONSTRUCTION AT HOLLOMAN AIR FORCE BASE, NEW MEXICO

    Senator Domenici. Are the F-22s still slated to begin 
arriving at Holloman the first quarter of 2009?
    General Moseley. Sir, I believe so. We have not changed any 
of the delivery dates. But also, let me take that for the 
record to get you an exact time.
    Senator Domenici. Would you do that?
    [The information follows:]

               F-22 Delivery Schedule to Holloman AFB, NM

    The first F-22A should actually arrive at Holloman Air 
Force Base, New Mexico in the third quarter of fiscal year 
2008. Maintenance training begins at Holloman in June 2008. 
Current plans show additional aircraft begin arriving in 
December 2008 at a rate of approximately two per month. The 
final contract delivery date of the 40th F-22A for Holloman is 
the second quarter of fiscal year 2011.

    Senator Domenici. Will you tell us a little bit about the 
plan to utilize the Air Force Reserve at Holloman as part of 
this new mission?

                        TOTAL FORCE INTEGRATION

    General Moseley. Sir, we believe that of all of our new 
systems, when we field a new tanker, the C-17, the F-22, the F-
35, everything that we do we do as a Total Force. The Virginia 
guardsman sitting behind me here is a lieutenant colonel who 
flies the F-22 at Langley Air Force Base in the 149th Squadron, 
which is a Virginia Guard squadron.
    Also, the Air Force Reserve will fly the airplane at 
Elmendorf Air Force Base in Alaska and at Holloman Air Force 
Base in New Mexico, and the Air National Guard will have the 
lead on the squadrons in Hawaii at Hickam Air Force Base. And 
as we flesh those wings out, we will have better capability in 
the Total Force with a lot more access to a lot more talent and 
skill. So, sir, of the four operating locations that we have 
now, we have two Air National Guard and two Air Force Reserve 
embedded alongside the Active.
    We have been in some discussions with the Air National 
Guard also on some other options for beddown of the airplane. 
Those are exciting, but we are still facing affordability 
challenges and affordability issues which gets us to the 
numbers of airplanes and the capacity. Sir, we continue to work 
that.

                                 F-22A

    Senator Domenici. Well, I understand the Air Force needs 
more F-22s. Would you tell us about that either for the record 
or now?
    General Moseley. I will speak for me and then let my boss 
parallel. But we support the President's budget request, and 
the numbers that we have now are 183. And those are 
affordability issues, and the affordability piece of this is to 
continue to try to balance our allowance inside the Department.
    Mr. Wynne. Sir, we were very pleased that the Secretary of 
Defense and the President determined that they could allow the 
next administration to make the judgment call and that they had 
said by letter to the Congress that they were intending to put 
four additional airplanes in the fiscal year 2009 supplemental 
request. We worry and have personal views on that, but we 
support the President's budget request as submitted.
    Senator Domenici. My last question has to do with something 
that I think is dear to your heart, and that is Cannon Air 
Force Base because that is the home of the new Air Force 
Special Operations Wing. That is something brand new and you 
are dedicated to making it work. We are dedicated to help you, 
if we can, make it work.
    From an Air Force perspective, how is this new mission 
proceeding so far?

    AIR FORCE SPECIAL OPERATIONS--CANNON AIR FORCE BASE, NEW MEXICO

    General Moseley. Sir, this is very exciting for us. We have 
a base now with an attendant range which is Melrose, with an 
attendant association with the White Sands Missile Range, an 
attendant association with the New Mexico Air National Guard on 
a variety of levels, an attendant relationship with the 49th 
Wing at Holloman Air Force Base and in the restricted airspace, 
with an attendant with the Army at Fort Bliss, Texas. So from 
Melrose Range through the restricted areas, all the way to the 
White Sands Missile Range and Fort Bliss through Holloman Air 
Force Base to Cannon Air Force Base, we now have some 
opportunities to do some very, very creative training. We have 
the open airspace, the training ranges, and the gunnery and 
bombing ranges that we need out of Holloman and Cannon Air 
Force Base. But I think equally important, it gives us an 
incredible capability to marry Guard, Reserve, Active, as well 
as partnerships with the Army.
    And so, sir, we have been very, very pleased that we have 
had a chance to work with the community and get those ranges 
certified so we can fire our 105 millimeter and all the guns 
that we have on the AC-130s and perhaps even the new potential 
on an AC-27 with a 30 millimeter gun that we will be able to 
use there. So, sir, this has got some real exciting 
opportunities ahead of us.

       CONSOLIDATED COMMUNICATION FACILITY--CANNON AIR FORCE BASE

    Senator Domenici. General, I know I have passed over my 
time by a bit, but the Air Force needs a consolidated 
communications facility at Cannon. We know it is needed. Can 
you tell us when does the Air Force intend to budget for it?
    General Moseley. Sir, we have talked to our communications 
folks about that, and if you will let me take that for the 
record, I will get you a funding line and an operational 
capability date.
    [The information follows:]

         Consolidated Communications Facility at Cannon AFB, NM

    The Air Force plans to program/budget for this 
communications facility in fiscal year 2010. Given no delays 
due to award protests, modifications, or weather, the Air Force 
estimates the initial operating capability for the facility 
will be in the spring of 2013.

    Mr. Wynne. Sir, if I can add. We are very excited about the 
integration effort, and that is the area where the simulation 
facility and the communications facility is targeted to make 
the most out of all of these assets that the Chief of Staff has 
enumerated.
    Senator Domenici. Mr. Secretary, I want to tell you that 
this base becoming a completely different kind of Air Force 
base is exciting, and I think it is exciting that you got it 
started. It got started under your leadership. It is something 
the Air Force will be looking at and lauding for quite some 
time in my opinion. Thank you.
    General Moseley. Senator, it also lets us wrap up that unit 
at Albuquerque, New Mexico, which is such a historically 
capable unit. As you know, we are looking at the follow-on 
capabilities, the follow-on opportunities for that unit, but 
when you think about Albuquerque, you think about Kirtland, 
Cannon, and Holloman Air Force Bases, and the White Sands 
Missile Range, and Fort Bliss, Texas. There are some wonderful 
opportunities out there because of the communities, but also 
because of the ranges and the size and expanse of the ranges, 
which is exactly why we put the F-22 at Holloman Air Force Base 
and we are looking at the Special Operations wing at Cannon Air 
Force Base.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    A few observations and then a couple of questions to you, 
General and Secretary Wynne.

                   TANKER REPLACEMENT CONTRACT AWARD

    Regarding the tanker situation, in competition there are 
always winners and losers. Some States win, some States lose. I 
understand that well. In this case, if this goes through, as I 
hope it will, Mobile, Alabama will become an industrial base 
for the assembly of these tankers and probably other things. 
Today we only have, as I understand, Toulouse, France and the 
Seattle, Washington area that are capable of doing this. We 
will have more capability.
    But I also believe that if the Air Force and Members of 
Congress wanted the tanker program to be a job creation program 
for a particular company, they would have scrapped competition. 
We all benefit from competition. The Air Force benefits from 
competition. Instead, the intent, as I understand it, General 
Moseley, was to provide our men and women, the warfighters, 
with the best air refueling aircraft in the world at the best 
value for the American taxpayer. Is that correct?
    General Moseley. That is correct, sir.
    Senator Shelby. It is also important to note, according to 
the Congressional Research Service, Congress has never--never--
intervened to overturn the outcome of a competitive source 
selection.
    Now, you alluded to it, Mr. Secretary. We do have a regular 
order here. The Air Force made a selection after looking at the 
criteria. I understand that Northrop-Grumman-EADS plane was 
judged superior in four out of five of the main measurements 
and tied, I think, for one. But there is a due process here. I 
understand that Boeing, as they have a right to, has protested. 
That goes to the Government Accountability Office. They have 
100 days, I understand, to evaluate all aspects of this bidding 
process, and they can--and correct me if I am wrong--ratify the 
process that went on, the selection process, amend it, or 
reject it and recompete. General Moseley, do you want to talk 
about that?
    General Moseley. Sir, that is my understanding.
    Senator Shelby. It is due process. Is it not, Mr. 
Secretary?
    Mr. Wynne. Yes, sir. Boeing has exercised that right.
    Senator Shelby. And we will await that. That is something 
that we have set up for the Government Accountability Office, 
an arm of Congress, to look at this objectively. Is that 
correct?
    Mr. Wynne. Yes, sir, and we have asked the tanker program 
office to work closely with the GAO and answer every question 
that they are asked.
    Senator Shelby. Is that right, General Moseley?
    General Moseley. That is my understanding, sir.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    Thank you, Secretary Wynne and General Moseley, for 
appearing before the subcommittee today.

                    AIR FORCE MODERNIZATION STRATEGY

    As I discussed with you last year and the year before, I 
remain extremely troubled and concerned about Air Force 
management, its current modernization strategy, and its 
unwillingness to consider alternative courses of action to meet 
current and future threats. The current Air Force strategy 
fails to address sufficiently the impact on the industrial 
base, particularly that of the fighter industrial base in St. 
Louis, which on its current path will be out of fighter 
production business in 2013. And through sole-sourcing of the 
F-35 Joint Strike Fighter, a stupendously bad decision I warned 
against before it was made, it has diminished competition, 
resulting in significant delays and resulted in tremendous cost 
growth because there was no competition.
    Just today, the GAO has released a report indicating that 
the F-35 costs are going to hit $1 trillion--trillion with a T. 
And they say the costs went up $23 billion last year alone. GAO 
found that the program has been dogged by delays, manufacturing 
inefficiencies, and price increases. That comes as no surprise 
when there is no competition. The GAO said costs have gone up 
by $23 million and the auditors said they expect development 
and procurement costs ``to increase substantially and schedule 
pressures to worsen based on performance data.''
    Now, I am also told that there will most likely be a Nunn-
McCurdy breach on the F-35, but somehow the Defense Acquisition 
Board is claiming scheduling delays which delays the 
announcement of what I believe is inevitably a Nunn-McCurdy 
breach and possibly delays our taking action in this 
subcommittee to deal with the problems of a Nunn-McCurdy 
breach.
    Now, the F-22, the F-35, and the C-5 RERP program all have 
tremendous cost growth and/or delays to various degrees as 
well. Yet, the Boeing St. Louis industry team has consistently 
delivered to its Navy and Air Force customers platforms that 
pound for pound and dollar for dollar are the best in this 
fiscal environment and are the most effective at defeating the 
current threats.
    Air Force costs for major programs are depleting the highly 
skilled and difficult-to-replace workforce necessary to build 
the next generation of manned and unmanned aircraft. These high 
costs result in the inability of the Air Force to equip fully 
the future force which usually results in much fewer flying 
missions for the Air National Guard as well. With the cost 
overruns and the lid on the purchase of F-22s, we all know 
there will never be enough F-22s to supply the Air Guard with 
those planes and continuing to purchase those unduly expensive 
planes will make it impossible to fill the gaps with other 
aircraft that are needed.
    We saw this coming in the BRAC 2005 process, again, flawed 
process, regrettably. I think major mistakes were made.
    And recently, of course, as my colleague from Washington 
has pointed out, the Air Force made the decision to award a 
large portion of a $40 billion contract to a Government-
subsidized European company, and it now looks like the Air 
Force's entire analysis may be half-baked. The Air Force has a 
lot of explaining to do about the waste of taxpayer dollars on 
excessive base construction at Air Guard bases to accommodate 
the European model, and I do not believe that was ever taken 
into account. We cannot find anybody in the Air Guard who was 
asked about how much construction, how much Milcon costs would 
go into making their facilities large enough, strong enough to 
handle the European model. And there was a total lack, as far 
as I have been able to find out, of coordination with the Air 
National Guard during consideration of these costs.
    Not only did the Air Force make the decision to award that 
contract to a Government-subsidized European company, but the 
more we hear about it, it sounds like the entire selection 
process has raised serious questions and will, undoubtedly, add 
many hundreds of millions of dollars to Milcon.
    Flawed Air Force policy is going to put the jobs of hard-
working American men and women at risk, as well as further 
diminishing--and it is important--further diminishing the long-
term U.S. competitive capacity, workforce skills, and supplying 
the aircraft we need to meet the ongoing missions. In the 
current fight against terrorism, we need capable, proven 
platforms to accomplish those missions. I think everybody here 
knows we need more C-17s to push cargo into the theater, to 
conduct all the tasks that you outlined. And we have to rely on 
Russian-made Antonov AN-124 transport aircraft to transport 
MRAP's overseas? To me that is inexcusable and a little bit 
embarrassing. And the C-5 RERP program is confronting 
significant costs in scheduled programs.
    Now, if you take a look at what is available and what the 
needs are, I continue to believe that we need F-15 Strike 
Eagles with significant payload and range to put bombs on 
targets in places like Afghanistan and Iraq. F-22s may defeat 
high-tech enemy fighters, but they cannot deliver ordnance on 
caves and bunkers in those countries. We need modernized F-15s, 
F/A-18s, and F-16s with AESA radars and integrated electronics. 
These are the ideal platforms for putting bombs on the target, 
defeating the enemy. Additional, more modernized F-15s and F-
16s are needed for the air sovereignty alert mission, paramount 
to defending U.S. airspace. Continuing to put all the emphasis 
on buying F-22s is not going to get the job done for our 
homeland security.
    Now, on the other side, the Navy's acquisition strategy has 
recognized that an expected shortfall in modernization dollars 
may require an adjustment in the mix of aircraft necessary to 
equip the future force. They have adopted a plan B. Why has the 
Air Force not? I know the figure of 383 F-22s is based on your 
required force model, and we all know that that is what the Air 
Force's plan A is. However, plan A is unrealistic. We do not 
need F-22s to hunt terrorists or perform air defense missions 
over the homeland, and it is unsustainable in the current 
fiscal environment. Where are we going to come up with $20 
billion a year to recapitalize the Air Force?
    The Air Force has been told this by civilian leadership 
repeatedly, from Secretary Gates to civilian leaders in DOD and 
the Congress, and yet, it does not appear, at least to me, that 
you have a plan B. The Air Force, like the Navy, needs to come 
up with a plan B that addresses the reduced number of F-22s.
    And after today's report, the reduction in F-35s due to 
continued cost growth and delays in fielding, such a plan B, I 
would suggest to you, for TACAIR looks like something like a 
mixture of F-22s and modernized legacy platforms like the F-15 
and the F-16. Failure to do so is going to leave a huge gap in 
our force structure, creating unacceptable risk, and I would 
regret to tell my friends in the Air Guard that they are likely 
to be history unless you start buying airplanes that we can 
afford and they will be able to fly.
    There are significant challenges before the Air Force that 
I look forward to working with you on to address. I share your 
commitment to ensuring our Air Force continues to maintain air 
dominance, but I hope you will be more receptive to discussing 
realistic alternatives.
    I will submit my questions for the record. We have had 
these question and answer sessions in the past, but my 
statement today reflects my grave concern that we have not 
gotten from plan A, which is not going to happen, to plan B, 
which could happen.
    I thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Working toward common goals in a joint environment without 
compromising service-specific principles, culture, and 
tradition makes good sense. However, I question whether it is 
realistic, and I would like to get your thoughts on how you 
think this can be successful. Or do you see potholes on the 
way?
    Mr. Wynne. Well, sir, I would say it this way, that there 
are always economies to be done by doing things together where 
you can have a service provider in a region. Much like Senator 
Stevens talked about on the hospital, if you would get to the 
right size at Elmendorf Hospital, you can service the patient 
load up there. That does not mean that you should not have a 
ready clinic on Fort Richardson, for example.
    But I think at the local level, I would like to see the 
local commanders come to an agreement. I think they have the 
best perspective and the best view as to where the savings 
could accrue in a joint service environment, and I believe 
there is a need for that. And I think the services should 
remain in the organize, train, and equip functions.
    And we should not lose sight of the local level because I 
believe that is where our morale is. Many times that is where 
our culture exists. It does not really exist here in 
Washington, DC, although we are surrounded by culture. It 
really exists at the local level in the field, whether it is 
Shaw Air Force Base, Charleston Air Force Base, or McGuire Air 
Force Base. All of that is where the Air Force culture is, and 
I know my colleagues in the other services feel precisely the 
same way. The Navy reveres Pearl Harbor. We revere Hickam Air 
Force Base.
    Senator Inouye. Does the joint basing agreement permit this 
type of localized control?

                              JOINT BASING

    Mr. Wynne. At the present time, I think the decisions look 
to me like they are going to be made very centrally. We have a 
decision that has been rendered that takes away some of the 
control that the service secretaries might have in the process. 
It is done with the thought that economics should rule over 
culture.
    I would say that at present I worry about the impact as we 
proceed down that road, and I particularly have concerns where 
the Air Force has made investments and now we will be forced to 
essentially petition through another service. I worry that it 
might be confusing to the subcommittee as to why is it that the 
Air Force hangars are being pursued by the Army or the Navy. 
Why is it that the Army barracks or ranges are being pursued by 
the Air Force? I am not concerned today because today the 
mission is overwhelming. I am concerned about 3, 4, or 5 years 
from now.
    Senator Inouye. Am I to gather from your response that we 
should set this joint basing agreement aside for at least 1 
year to give the service chiefs and service Secretaries time to 
reflect upon it?
    Mr. Wynne. Well, as a believer of the BRAC, as you remember 
from the Government side, I had a vision for joint basing that 
would be concluded by 2011 on an agreement basis. I do not 
think a year delay would affect us. However, I understand 
everybody has got a good sense of trying to get on with it. I 
would in the year, rather than put it on a hold basis, ask to 
generate local agreements to see what could be done and what is 
appropriate to be done because I do think that there are some 
savings out there, and I know doing it properly, there is some 
money to be saved.
    Senator Inouye. General Moseley.
    General Moseley. Sir, I think it is well understood in the 
services that we organize, train, and equip by service, by 
domain. The United States Army is the finest army in the world 
and it operates to dominate the land domain. The same with the 
Navy for the maritime domain. We have Special Operations, and 
for the Air Force, we live to dominate air and space, as we are 
all looking together at a cyberspace domain. We recruit, we 
train, and we develop, and we promote, and we command as 
services. We fight jointly but we operate and organize training 
and equip functions under the title 10 of the U.S. Code.
    My competencies are not land or maritime, nor is my 
service. If the Joint Chiefs were all standing here together, 
we would say that we bring together the things that matter for 
a combatant commander. I have listened to and learned from an 
Army Chief and a Chief of Naval Operations and a Marine Corps 
Commandant relative to their domains. And so anything that 
begins to fuzz those lines or anything that begins to inhibit 
the ability to organize, train, and equip, sir, I think we have 
to take a look at.
    And I believe joint basing is a good idea. I believe 
looking at the services capability--and I do not mean services 
as Army, Navy, Air Force, Marine Corps, but base operating 
support and services to look at synergies to be able to save 
money, save resources is a wonderful idea and we should pursue 
that. But as we begin to look at things that impact command 
authority or execution of the command, then I think we have to 
be very careful.
    Senator Inouye. I personally think you have made your case 
and we are going to work toward that.
    May I ask another question? What is the latest status of 
the combat search and rescue helicopter?

                  COMBAT SEARCH AND RESCUE HELICOPTER

    Mr. Wynne. It has, as you know, also been subject to a GAO 
review on a couple of occasions. We hope to get resolution by 
August or September of this year. Once it gets into a process 
like this, we are asking for resolicitations. Those have been 
in. Now we are in the process of reevaluating the outcome.
    General Moseley. Mr. Chairman, I would like to add an 
operational piece to this also. This is about being able to go 
pick people up in combat. The United States Air Force does this 
for the entire joint team. It is a core competency for us, and 
I believe it is a moral imperative to be able to go pick up a 
downed person or a party. That is what we do for combatant 
commanders in the Pacific and combatant commanders in Europe 
and in Southern Command and also in Central Command. And this 
captain sitting behind me has dedicated his life to be able to 
do that.
    So the notion of being able to get on with this and field 
the capability and give it to our squadrons so we can get into 
a much more capable, survivable, penetrating platform is my 
desire. And that is why the two of us have made that the number 
two acquisition priority in the United States Air Force.
    Senator Inouye. I concur with you, sir. I have had some 
experience. It took me 9 hours to be evacuated from my point of 
combat to the field hospital, and with this new combat search 
and rescue helicopter, you might be able to do it in 15 
minutes. That is the difference between life and death. You 
have my vote.
    Mr. Wynne. Yes, sir.
    Senator Inouye. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman. I appreciate the 
time.
    Mr. Secretary, despite the leaks that have apparently 
occurred that allowed a spin to be created out there for some 
amount of time, I do want, for the record, to ask you, because 
I know you have said this already. Both planes were good planes 
in the competition.
    Mr. Wynne. We would have been proud to fly in either one.
    Senator Murray. Thank you, Mr. Secretary.
    For the record, on behalf of myself--and I know that the 
Senator from Alabama has good reason to be excited about the 
potential for some jobs in his State. We have worked hard 
together on many, many issues--I would say that I think 
competition is great, and I encourage competition.
    But I think we all ought to give great pause to the fact 
that this is not a level playing field when one of the 
companies is heavily subsidized and, therefore, can offer a 
contract at much less cost, to the detriment of a United States 
company. So I think that is a question that really should give 
us all pause, and I know that I will be pursuing that in other 
places as well.
    Mr. Secretary, I wanted to ask you. I know you cannot 
answer any questions about the contract itself. I understand 
the process that we are in and I understand the proprietary 
information. So let me go away from that and ask you a 
philosophical question that I wonder if you have pondered: Is 
the United States Air Force ready for another country's air 
force to have the same capabilities that we do?
    Mr. Wynne. Well, it very much depends upon the character of 
the device or airplane that it is. I would say the Air Force 
would prefer to be the dominant air force in the world in 
probably all of its aspects.
    That having been said, the way that the competition is 
rendered, I think that we husband now a lot of the inner 
technologies that allow us to be the most lethal air force in 
the world, and we have----
    Senator Murray. But does it concern you?
    Mr. Wynne [continuing]. Front-loaded some of the logistics.
    Senator Murray. You mentioned earlier that you are worried 
about our military complex. Does that concern you?
    Mr. Wynne. I am very much concerned about the industrial 
base in air, the industrial base in space, and we have an 
emerging industrial base in cyberspace, and I hope they stay 
with us.
    Senator Murray. Well, let me talk about national security 
for a minute. I think we all know that the Air Force is the 
finest in the world, exemplified by the amazing men and women 
behind you. And I congratulate and thank each one of them. The 
all-volunteer force has been flying nonstop in defense of our 
Nation. They have done an incredible job. I am extremely proud 
of the two Air Force bases in my home State and the men and 
women who serve there.
    But what really perplexes me is that when we procure new 
assets for the Air Force, the leadership does not take into 
account the wider view to include the preservation of our 
domestic aerospace industry when it outsources contracts. My 
understanding is that the Navy, in fact, does, Mr. Chairman, 
have rules regarding domestic production of our assets. Why 
does the Air Force not have the same requirements?
    Mr. Wynne. Ma'am, I would say it this way, that the 
shipbuilding industry is a powerful force in our economy and in 
our marketplace, and we would actually like a similar caucus to 
appear as with the aerospace industrial base to focus on the 
aerospace industrial base. And I am not really just talking 
about the prime level, but at the third tier and the fourth 
tier, people that are essentially ignored when we come even to 
questions like long lead and we do not realize that the landing 
gear manufacturer down in the fourth tier or the supplier to 
the landing gear manufacturer cannot make a market with a very 
low or ignored long-lead funding.
    So I would tell you that where I am it is very hard to 
essentially structure a competition after the competition has 
concluded. It would have been much better to structure the 
competition in advance.
    Senator Murray. Well, we are where we are, and the reality 
of what we have not done in the past is now in our face, and I 
think it is something we seriously need to look at. I think you 
would share that concern.
    Mr. Wynne. I think the way that our industrial base is 
shrinking, especially in the aerospace and space industry, is 
something that the Congress should take a look at.
    Senator Murray. I am hearing from a lot of my constituents 
and people across the country who--obviously, the economic 
times when our economy is headed toward a recession, if not 
there, the fact that we are spending $40 billion, maybe more, 
for jobs that will be mostly overseas is, I think, particularly 
distressing to a lot of Americans.
    But let me leave that aside for a minute and focus really 
on the national security implications of a contract like this. 
If this contract is carried out and goes to Airbus, France, 
Germany, others, Russia, what happens in the future if one of 
those governments disagrees with us on foreign policy? What if 
they decide they want to slow down our military capability for 
whatever reason? What is the Air Force's plan if Airbus pushes 
back deliveries?
    Mr. Wynne. Well, right now we have an agreement among 
allies. You are reaching into policy areas where I really have 
no knowledge. I can only tell you that the agreements and the 
suppliers that we have on that particular airplane have been 
loyal to American policy for decades and decades and decades. 
So I really cannot go out there and now declare somehow that 
because they have been judged winners and they intend to 
provide 25,000 jobs here in America, that somehow they are, 
downstream, going to be bad.
    Senator Murray. Though we cannot predict the future, what 
if they decide they are not going to do replacement parts 
because of some policy that we have that they disagree with; 
whether it is our policy in the Middle East or elsewhere?
    Mr. Wynne. I really hesitate to go anywhere near that.
    Senator Murray. And these were not questions that you 
mulled about in going through in awarding this contract at all?
    Mr. Wynne. No, ma'am. They were not aspects of the law that 
we followed.
    Senator Murray. And I keep hearing you go back to that 
darned law.
    Okay. Well, let me ask you about another issue because from 
what I have been reading in the press, the main shareholders of 
EADS, France and Germany, have been working to usurp the 
authority to deny investment in Airbus by other foreign 
entities and countries. And that effort has been stymied by the 
EU, therefore adding the possibility that holdings by Russia 
and the UAE could be increased from their current levels. It 
also adds the possibility that other foreign governments could 
become part owners of Airbus.
    Was this instability of EADS considered at all, and if so, 
was it factored into the aggregate risk associated with the KC-
45A bid?
    Mr. Wynne. I do not believe that was a consideration. It is 
not a consideration in any competition that we are in.
    Senator Murray. So when we talk about risk and we are 
looking at those kinds of risks, you do not take into account 
that entire----
    Mr. Wynne. We assess the financial capability of the 
company as a part of a manufacturing look. This is a very 
stable financial company, a lot of sales around the world, 
competing, going to compete for, I believe, 25,000 airplanes 
over the course of the next 20 years. They looked very stable 
to us.
    Senator Murray. Well, Mr. Chairman, I know I have taken 
considerable amount of time here. It seems to me that this 
hearing for me has raised as many questions, if not more, than 
I came in with. I obviously have serious concerns about our 
national security. I think every Member of Congress should. I 
have serious concern about awarding a contract to a company 
with which we are in a trade dispute, a serious trade dispute, 
at the WTO over illegal subsidies. I have serious concerns 
about economic impact in the infrastructure. I hope that we can 
meet again in the near future to talk about this competition 
not only to focus on some of the questions I have raised here, 
but on the contracting process as well.
    And I will submit some questions for the record.
    But I think these are serious issues that we as 
policymakers at this incredibly important moment, when we are 
going to decide something that will impact us for not just a 
few months or a few years, but really for decades to come. We 
have to think about that as we move forward, and I urge this 
subcommittee to look into those concerns. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I will be brief.
    General Moseley, Mr. Secretary, do you believe that the Air 
Force did the right thing in making the award, and do you 
believe that they selected the best plane for your mission? 
General Moseley.
    General Moseley. Sir, I believe with the rule set that we 
have and the competition and the offerings we had, we got us a 
good airplane, and I am willing to fly it.
    Senator Shelby. Mr. Secretary.
    Mr. Wynne. Sir, we went through a very rigorous 
examination. We had a lot of interchange with the clients. I 
recognize that Boeing has asserted their right to protest, but 
we did, at the time, believe we bought the right airplane for 
the right price.
    Senator Shelby. Thank you.
    Senator Inouye. I have tried my best to stay out of this 
controversy, but in order to clarify certain things, we have 
been told that the Northrop-Grumman contract involves a foreign 
country or foreign countries providing certain supplies of 
parts. Does Boeing have any foreign involvement, or is it all 
American-made?
    Mr. Wynne. I believe that Boeing does have some 
international suppliers.
    Senator Inouye. May I ask from what countries?
    Mr. Wynne. Sir, I would have to get you that for the 
record, but it would not surprise me to think they were 
similar.
    General Moseley. Sir, please let us take that for the 
record. We will have to do some research on specifically what 
countries produce what subassembly and what parts. Sir, I do 
not know that right now.
    Senator Inouye. But you are certain that both companies 
have foreign involvement.
    General Moseley. Yes, sir. That is my understanding.
    [The information follows:]

    The details of the 767 tanker Boeing proposed are 
proprietary and source selection sensitive. Since a protest has 
been filed with the Government Accountability Office, we cannot 
include such information in this written response. However, we 
can provide it verbally in a closed briefing, if requested.
    According to the February 26, 2008 Assessment of FAA's 
Risk-based System for Overseeing Aircraft Manufacturers' 
Suppliers by the Department of Transportation (Report Number 
AV-2008-026), parts of the commercial 767 airframe are built in 
Japan and Italy.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Mr. Secretary, General, I will be 
submitting several questions for your consideration, and I hope 
you will respond to them. And I wish to thank you for your 
testimony this morning and your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted to Hon. Michael W. Wynne
            Questions Submitted by Senator Daniel K. Inouye

                              END STRENGTH

    Question. Secretary Wynne, the Air Force has reevaluated its 
planned personnel drawdown. Instead of drawing down to 316,000 airmen 
by the end of fiscal year 2009, you would like to grow to 335,000 
airmen by fiscal year 2015. This revised plan will cost $385 million in 
fiscal year 2009 and is not included in the budget request. If these 
additional personnel are vital to carrying out the Air Force's mission, 
why are they not included in the President's request?
    Answer. Due to fiscal constraints, the Air Force will reduce our 
active duty end-strength to 316,600 in fiscal year 2009. This level 
clearly falls short of our required force of 330,000 active duty end-
strength for fiscal year 2009, which increases to 335,000 by fiscal 
year 2015 due to force structure growth in CSAR-X, Predator and Global 
Hawk, KC-X, Distributed Common Ground Systems, and Battlefield Airmen.
    The Air Force's required force--``what's needed per the 2006 
Quadrennial Defense Review''--is 86 modern combat wings with 330,000 
Active Duty Airmen in fiscal year 2009 growing to 335,000 by fiscal 
year 2015. However, without additional resources, the Air Force has to 
balance risk within its portfolio.
    With fiscal year 2007 Program Budget Decision 720, the Air Force 
planned to reduce 40,000 Active Duty, Guard, Reserve, and civilian 
full-time equivalents in order to submit a balanced budget and self-
finance the critical recapitalization and modernization needed to 
preserve America's air, space, and cyber superiority. An end strength 
of 316,600 seeks to balance the risk of deferring recapitalization and 
modernization with the risk of maintaining an end strength below our 
required force.

                          C-5 RELIABILITY/RERP

    Question. Secretary Wynne, the reported mission capable rate for 
the C-5 aircraft in fiscal year 2007 was about 52 percent. We 
understand that the primary factors for the low rate are inadequate 
maintenance and lack of investment in spare parts. Rather than 
investing an additional $6 billion to re-engine the aircraft, why not 
put additional funding into maintenance and spare parts?
    Answer. As opposed to the marginal utility offered with increases 
in sustainment funding, C-5 RERP will provide a significant increase in 
C-5 fleet availability by replacing the propulsion system and over 70 
unreliable systems and components, eliminating the need for additional 
peacetime manpower requirements in the reserve components, which is the 
primary cause of the aircraft's currently low MC rate. Moreover, the 
new engines will improve aircraft performance, allowing the modified 
aircraft to carry more weight longer distances while burning less fuel. 
RERP for the C-5B is a smart investment from the standpoint of both 
reliability and performance.
    (Additional funding for aircraft spares only provides a marginal 
improvement in C-5 mission capable (MC) rates. Aircraft spares have 
historically been funded to 100 percent of the MC rate standard (75 
percent for Active Duty and 50 percent for Reserve Components) so 
additional sustainment funds may add little or no benefit to MC rate 
improvement. There are different MC rate standards for the reserve 
components because they serve as our strategic reserve for airlift 
capacity. In time of war, their manpower and sustainment footing is the 
same as the active duty and they have the same wartime MC rate 
standard.)

                             UNFUNDED LIST

    Question. Secretary Wynne, a recent Congressional Research Service 
report states that between fiscal year 1998 and fiscal year 2009, the 
budget of the Department of Defense has grown by forty-four percent. 
The Air Force budget has obviously been a part of the total growth over 
those years. Despite the exponential growth of the budget, the Air 
Force has submitted an Unfunded Requirements List totaling over $18 
billion. What is the message that the Air Force is trying to convey to 
this Subcommittee with a list of 150 items that are current 
requirements but not included in the budget request?
    Answer. Global trends over the last decade have presented 
significant challenges to our organization, systems, concepts and 
doctrine. Would-be adversaries are developing asymmetric approaches to 
attack vital levers of U.S. power and ascendant powers are posturing to 
contest U.S. superiority with ``Generation 4-plus'' fighter aircraft, 
increasingly lethal air defense systems, proliferation of surface-to-
surface missiles and a resurgence of counter space capabilities. 
Demands for Intelligence, Surveillance, and Reconnaissance (ISR) and 
space capabilities, that simply did not exist a decade ago, as well as 
a renewed emphasis on modernization and emerging cyberspace threats to 
meet existing and expected challenges have placed significant stress on 
our baseline budgets.
    The Air Force fully supports the fiscal year 2009 President's 
budget request and is appreciative of the increased funding over the 
last decade. These funds have given us the resources to win today's 
fight, take care of our people, and slowly modernize for tomorrow's 
challenges. While the fiscal year 2009 budget provides a moderate 
increase over the fiscal year 2008 budget and enables us to meet 
today's global commitments, additional funding is necessary to ensure 
Air, Space and Cyberspace dominance for the 21st Century. The fiscal 
year 2009 Unfunded Requirements List (URL) identifies our most critical 
needs should additional funding be made available. The majority of the 
URL is tied to the weapon systems, personnel, and support necessary to 
equip our Required Force of 86 modernized combat wings.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                           KIRTLAND AFB BRAC

    Question. Among other things, Kirtland Air Force Base is home to 
the Nuclear Weapons Center, 58th Special Operations Wing, and two Air 
Force research laboratories. Where is the Air Force at in transitioning 
AFRL's Space Weather work to Kirkland, as required by the 2005 BRAC?
    Answer. The Air Force intends to transition AFRL's Space Weather 
work from Hanscom AFB, MA to Kirtland AFB, NM in time to meet the BRAC 
mandated deadline of September 15, 2011. The estimated $42.7 million 
military construction project to support the transition has an 
estimated contract award date of May 30, 2008.
                        joint new mexico efforts
    Question. New Mexico offers a number of assets of critical 
importance to the Department of Defense, and I'm pleased the Department 
is taking advantage of those assets by locating F-22 at Holloman, 
Special Operations Forces at Cannon, research and space work at 
Kirkland, and a variety of test and evaluation work at White Sands 
Missile Range (WSMR). Additionally, Fort Bliss often does work in New 
Mexico, either on its own land or on WSMR land.
    What are you doing to coordinate joint training and testing 
initiatives among these groups? Will you work with the Secretary of the 
Army to ensure that the Army's and the Air Force's work in New Mexico 
and Texas are coordinated and cooperative whenever possible?
    Answer. U.S. Joint Forces Command's Joint National Training 
Capability (JNTC) provides the overarching policy and guidance for 
coordinating joint training. Joint training activity involving the New 
Mexico facilities and Fort Bliss, TX will include Fort Bliss Patriot 
batteries and Special Operations forces participating in JNTC 
accredited and certified exercises.
    The Air Force and Army continuously seek opportunities to improve 
joint operations and activity. The Air Force is working closely with 
the Army to expand the use of the White Sands Missile Range and 
Holloman AFB, NM airspace for F-22 training. Joint Air Force-Army 
activities are addressed at the highest levels including the recent 
2008 Army-Air Force warfighter talks conducted by both Services' Chiefs 
of Staff. The Air Force and the Army are both capitalizing on local 
joint training and exercise opportunities for joint intelligence, 
surveillance, and reconnaissance assets, conventional Army forces, and 
Air Force close air support units.
    The Distributed Mission Operations Center (DMOC) at Kirtland AFB, 
NM remains the hub for connecting the Air Force and other Service 
participants, in a live-virtual-constructive arena. The DMOC Army Air 
and Missile Defense units have been habitual training partners and 
serve as both Red and Blue air defense in these exercises.
    There is an initiative to develop a coordinated range scheduling 
and utilization system to help improve range space utilization on 
Holloman AFB, NM and White Sands Missile Range. The Air Forces ranges, 
Edwards and Eglin Air Force Bases, along with White Sands Missile Range 
are participating in the Common Range Integrated Instrumentation System 
managed out of Eglin AFB, FL--a Central Test and Evaluation Investment 
Program (CTEIP) initiative. Another CTEIP initiative that may involve 
test and training in the future is the Unmanned Aerial Vehicle System 
Operations Validation Program being managed at Holloman AFB, NM. 
Another CTEIP space initiative is the Space Threat Assessment test bed 
at Kirtland AFB, NM managed by the Space Development and Test Wing.

                             NEW MEXICO ANG

    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty forces to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
will soon be retired.
    What is the Air Force doing to develop a new mission for the Air 
National Guard at Kirtland Air Force Base? Has the Air Force considered 
giving Block 40 or 50 F-16s to the 150th to enable them to continue 
providing their outstanding service to New Mexico and the United 
States?
    Answer. As the Air Force, Air National Guard and Air Force Reserve 
Command continue to plan for programmed retirements of the legacy 
fighter fleet of A-10, F-15, and F-16 aircraft, we are analyzing ways 
to expand our Total Force capability in the fiscal year 2010 budget by 
considering building more classic and active associate units at Regular 
Air Force and Reserve Component locations, respectively. As we work 
through this Total Force Integration analysis, we will review all Air 
National Guard (ANG) and Air Force Reserve Command unit locations, to 
include the 150th Fighter Wing at Kirtland AFB, NM to support a 
potential future active association or to participate in a classic 
association. In the Chief's Roadmap released on January 16, 2008, 
Kirtland AFB, NM is a potential beddown location for the F-35 and CSAR-
X. All future beddown locations will be impacted by Total Force 
Integration efforts and Environmental Analysis/Impact Study results. 
Currently there are no Block 40 aircraft available to transition the 
New Mexico ANG. However, the Air Force in coordination with the 
National Guard Bureau, is constantly reviewing aircraft allocations and 
adjusting aircraft beddown locations as the missions of the Air Reserve 
Component and the Regular Air Force evolve. The 150th Fighter Wing 
assigned aircraft will continue to be an important part of a 
comprehensive force structure optimized for national defense.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

                              COST OVERRUN

    Question. What is the amount of the current cost overrun for the F-
22 program? What is the amount of the current cost overrun for the F-35 
program and are reports that the program will result in a Nunn-McCurdy 
cost breach accurate? What is the amount of the current cost overrun 
for the C-5 modernization program? How many Nunn-McCurdy cost breaches 
has the Air Force experienced in the past 10 years? With a concern that 
these questions may be related, I am interested in knowing if the Air 
Force has an industrial base strategy and policy--and if so to explain 
to members of the committee the policy's goals and successes if any?
    Answer. There is currently no cost overrun on F-22 since the last 
Selected Acquisition Report (SAR) baseline. This baseline adjustment in 
2007 was only in military construction due to cost growth for bed-down 
of new F-22 squadrons. The F-35 is experiencing normal cost and 
schedule pressures but is not at risk for a Nunn-McCurdy breach in 
fiscal year 2009. The December 2006 SAR reflects approximately 38 
percent unit cost growth since Milestone B. Contrary to the GAO report, 
the preliminary data for the December 2007 SAR shows no growth in Nunn-
McCurdy measures from SAR 06 to SAR 07. The F-35 prime contractor is 
currently updating their estimated cost at completion. Preliminary 
estimates reflect increased costs between $1.2 and $1.5 billion over 
the remaining development contract. The Department has kicked off a 
joint independent government cost assessment which is supported by a 
team of Air Force, Navy, and OSD cost experts to support the 2010 
President's budget request, which will be reflected in the December 
2008 SAR. With respect to the cost overrun for the C-5 Reliability 
Enhancement and Re-engining Program (RERP), it is $4.4 billion. The 
overrun is based upon a comparison of the approved February 2005 
Acquisition Program Baseline and the January 2008 independent cost 
estimate accomplished by OSD in support of the RERP Nunn-McCurdy 
certification process.
    The Air Force has experienced a total of 25 Nunn-McCurdy unit cost 
breaches in the past 10 years (1998-Present). A significant portion is 
attributable to the additional criteria established in the fiscal year 
2006 National Defense Authorization Act (NDAA). The following breakout 
is provided for clarification: There were 15 breaches prior to the 
fiscal year 2006 NDAA, four breaches due to the fiscal year 2006 NDAA 
Section 802 directing initial implementation of the Original Baseline 
Estimate, and six breaches since implementation of fiscal year 2006 
NDAA (breaches against both Original and Current Baseline Estimate).
    Air Force leadership recognizes a healthy industrial base as an 
essential element of successful acquisition. As such, the Service has 
developed a comprehensive policy contained in Air Force Policy 
Directive 63-6, Industrial Base Planning. The goals of this policy are 
consistent with the Department of Defense's desired attributes for an 
industrial base; namely, one that is reliable, cost-effective, and 
sufficient. The Air Force is laying the groundwork for an industrial 
base strategy to support this policy and recently stood-up an Air Force 
Industrial Base Council as a forum to identify and address emerging 
industrial base issues.
    Examples of Air Force industrial base successes include efforts to 
provide a domestic source for specialized batteries and to improve 
industrial capability to produce large-scale composite structures. 
Under the authority provided by Title III of the Defense Production 
Act, the Air Force began a three-year, $8.7 million effort with Enser 
Corporation for thermal battery production in 2005. In 2006, a combined 
Air Force, Office of the Secretary of Defense, National Reconnaissance 
Office, Missile Defense Agency, and National Aeronautics and Space 
Administration four-year, $84 million program was initiated under Title 
III to ensure domestic supply and production of space-qualified Lithium 
Ion batteries. Finally, in 2007, the Air Force initiated a three-year, 
$15 million effort to increase the production rate of large-scale 
composite structures by making improvements in manufacturing equipment 
and processes. A new Integrated Automated Advanced Fiber Placement 
Machine replaces the current time-consuming operation with the 
capability to automatically and precisely control placement of the 
fiber required to produce complex, large-scale composite structures, 
such as aircraft wingtips, control surfaces, inlet ducts, and engine 
nacelles, resulting in increased production rates and cost 
efficiencies.

                              F-22 PLAN B

    Question. Your boss Secretary Gates, DOD civilian leadership, and 
elected civilian leaders in the Congress, have all stated that 183 is 
the number of F-22s. The Navy's acquisition has recognized that an 
expected shortfall in modernization dollars may require an adjustment 
in the mix of aircraft necessary to equip the future force. I know the 
383 is based on your ``Required Force'' model and we know what your 
Plan A is. However, Plan A is unrealistic and unsustainable in the 
current fiscal environment and to meet the current threat. You have 
been told this by civilian leadership repeatedly and yet, you don't 
appear to have a Plan B? What Plan B are you seeking to ensure AF fills 
the delta of 200 tactical fighter aircraft in the likely event that 
only 183 F-22's are procured and we see less than the projected number 
of F-35 aircraft because of continued cost growth and delays in 
fielding?
    Answer. The Air Force is committed to the strategic imperative of 
providing Global Vigilance, Global Reach, and Global Power through 
cross-domain dominance to underwrite the security and sovereignty of 
the nation. The Air Force plans to implement this imperative by 
developing the QDR-directed 86 combat wing capability. Key to providing 
the air dominance element is a healthy recapitalization and 
modernization plan for replacing aging, less capable legacy platforms, 
but affordability of necessary capability is a major challenge to 
successfully achieve the Air Force's recapitalization objectives. The 
Air Force is encouraged by President Bush's and Secretary Gates' 
position to defer a decision on the F-22A line shut-down and ultimate 
numbers to the next administration. From a strategic perspective, the 
Air Force plans to increase the operational capability of some legacy 
air superiority platforms (e.g., F-15 Golden Eagles) while examining 
other future force structure alternatives to provide additional air 
dominance capacity.

                      FOUR-CORNER BASING PLAN F-22

    Question. How many aircraft must the Air Force procure in order to 
establish a four-corner basing plan for F-22 aircraft and establish a 
roadmap that provides for the substantive involvement of the Air 
National Guard in the air supremacy and homeland defense missions?
    Answer. 460 F-22s are needed to fully bed down F-22s at active duty 
and at the ``Four Corner'' Air National Guard locations. This provides 
all Air National Guard combat-coded bases with 24 primary aircraft 
authorizations. In this proposed plan, F-22s deliver to Four Corner Air 
National Guard bases in calendar year 2014.

                           RETIREMENT OF C-5

    Question. What is the current Air Force position on the retirement 
of C-5 aircraft? If USAF is provided the authority to retire older C-5 
aircraft will the Air Force POM for more than the (15) C-17 aircraft in 
the current UFR list? Does the Air Force UFR take into account the 
Army's requirement to transport the future family of Army ground 
vehicles in C-17 transports and the projected growth in Army and USMC 
ground forces?
    Answer. We are conducting internal analyses to determine the future 
of the C-5As, including the number and mix of aircraft necessary to 
meet future requirements. Within current budgetary constraints we are 
unable to program for additional C-17s. A fiscal year 2008 procurement 
provided by a Global War on Terror Supplemental, as well as the 15 C-
17s on the fiscal year 2009 Unfunded Requirements List, offer the 
ability to keep the C-17 production line open while we continue to 
evaluate emerging airlift requirements. Those requirements include the 
92,000 person increase in ground forces, future combat system (FCS) and 
Mine Resistant Anti-Personnel (MRAP) transport and U.S. Africa Command 
stand-up.

                     KC-X AND MILITARY CONSTRUCTION

    Question. I recently received reports that the Air National Guard, 
which manages 41 percent of the air tanker assets at 20 facilities 
across the nation (three of which will be closed due to BRAC) was not 
consulted on the KC-X tanker solicitation. Additionally, concerns have 
been conveyed to my office that there are significant MILCON costs 
associated with the Airbus-KC45 because of the size differential 
between the Airbus-KC45, Boeing-767 and the KC135 tanker variants. 
Reports indicate that the MILCON costs associated with the Airbus-KC45 
will be significantly higher than the costs associated with the Boeing-
767, a factor that in the longer term may prohibit the future 
participation of the Air National Guard in the tanker mission.
    (1) Can the Air Force explain why it would not consult with its 
strategic partner in the Air Force tanker mission on what is clearly 
the most important tanker decision the service will make in the next 50 
years? (2) What are the projected MILCON costs associated with the 
Airbus-KC45 basing plan to include new hangar facilities, support 
equipment, ramp and runway upgrades if required and how will weight and 
size restrictions of the Airbus-KC45 impact operational effectiveness 
in comparison to the Boeing-767? (3) How did projected MILCON costs for 
the Airbus-KC45 and Boeing-767 factor into the final decision?
    Answer. (1) The Air Force did consult with the Air National Guard 
regarding the KC-X program. A member of the National Guard Bureau 
participated in the development of the requirements and supported the 
KC-X source selection as a subject matter expert.
    (2) MILCON costs include new buildings, modifications to existing 
buildings, new hangars, ramp expansions, and relocation of fuel 
hydrants. Specific costs for the KC-45 are source selection sensitive, 
and since a protest has been filed with the GAO, they cannot be 
included in this written response.
    Aircraft characteristics such as size and weight were accounted for 
in the Integrated Fleet Aerial Refueling Assessment, one of the five 
evaluation factors. The comparison of this assessment for the two 
aircraft is source selection sensitive; we can provide this information 
verbally in a closed briefing, if requested.
    (3) One of the five source selection evaluation factors was Most 
Probable Life Cycle Cost (MPLCC). MILCON is one component of the MPLCC. 
It was not weighted or considered separately.
                                 ______
                                 
           Questions Submitted to General T. Michael Moseley
             Question Submitted by Senator Daniel K. Inouye

                              CYBER DOMAIN

    Question. General Moseley, the Air Force appears to be staking out 
new territory with the recognition of cyber warfare as a separate 
domain and the stand-up of the new Air Force Cyber Command in October 
of last year. Your recent White Paper on the 21st Century Air Force 
asserted that cyberspace superiority is essential for success and is 
the enabler for air, land and sea warfare. Could you elaborate on what 
you mean by cyberspace superiority and what steps are needed to attain 
it?
    Answer. We define Cyberspace Superiority as the degree of dominance 
in cyberspace of one force over another that permits the conduct of 
operations by the former and its related land, air, sea, space, and 
special operations forces at a given time and place without prohibitive 
interference by the opposing force. [taken from Draft AFDD 2-X: 
Cyberspace Operations (version pending)]
    To achieve cyberspace superiority, the Air Force must take these 
steps:
  --Develop an organized, trained, and equipped force capable of 
        integrating, synchronizing, and executing cyber operations 
        across the full spectrum of conflict.
  --Field diverse capabilities to hold our adversaries at risk in and 
        through cyberspace across the globe.
  --Foster strong ties with other Services, government agencies, 
        industry, and academic institutions to share intelligence, 
        strategy, technology, and intellectual capital.
  --Develop a globally networked command and control capability able to 
        coordinate extensive and simultaneous regional and trans-
        regional effects, and able to operate in and through a 
        contested cyberspace environment while maintaining data 
        integrity and able to recognize loss of integrity.
  --Develop and sustain the supporting technical, intelligence, and 
        command infrastructures needed to plan, conduct, and assess 
        cyber operations.
                                 ______
                                 
           Question Submitted by Senator Christopher S. Bond

                      FOREIGN MILITARY SALES F-22

    Question. General Moseley, are you aware of congressional concerns 
and the law prohibiting foreign military sales of the F-22? If so, can 
you explain your position in support of opening up discussions on FMS 
for the F-22? This again, is counter to civilian leadership and current 
law.
    Answer. I am aware of Congressional concerns about foreign military 
sales of the F-22, and understand the Obey Amendment. I would welcome 
the opportunity to discuss export of the F-22 should Congress and the 
Secretary of Defense wish to do so in the future. Just as we require 
airpower capabilities to defeat adversaries, our allies have similar 
requirements for appropriate airpower capabilities.

                          SUBCOMMITTEE RECESS

    Senator Inouye. This subcommittee will reconvene on 
Wednesday, April 2, at 10:30 a.m., and at that time we will be 
in closed session to receive testimony on the space programs. 
Until then, we will be in recess.
    [Whereupon, at 12:09 p.m., Wednesday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
